<html>
<title> - TRANSPORTATION AND HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2017</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]



 
TRANSPORTATION AND HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2017

                              ----------                              


                      WEDNESDAY, NOVEMBER 16, 2016

                                       U.S. Senate,
           Subcommittee on the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:20 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Susan Collins, (chairman) 
presiding.
    Present: Senators Collins, Cassidy, Daines, Reed, and 
Murphy.

          The Automated and Self-Driving Vehicle Revolution: 
                    What is the Role of Government?


             opening statement of senator susan m. collins


    Senator Collins. This hearing will come to order.
    Good afternoon. I'm pleased to be joined today by our 
ranking member, Senator Jack Reed, and by Senator Cassidy and 
others who will be joining us, as we hold this hearing to 
examine the role of government in enhancing roadway safety 
through the careful deployment of automated and self-driving 
vehicles, which could revolutionize our transportation system.
    I also welcome our panel of witnesses. We are joined today 
by Mark Rosekind, the Administrator of the National Highway 
Traffic Safety Administration; Deborah Hersman, the President 
and CEO of the National Safety Council; Paul Brubaker, the 
President and CEO of the Alliance for Transportation 
Innovation; and Dr. Nidhi Kalra, the Senior Information 
Scientist at the RAND Corporation. I look forward to hearing 
from each of you.
    The potential of the new technology that we're examining 
today is exciting, cars that drive themselves and avoid 
accidents, seniors and disabled individuals able to retain or 
gain their ability to get around town. At first, it sounds like 
science fiction or an advance far, far off into the future. But 
this technology is being tested and perfected right now, and it 
could save thousands of lives.
    According to the most recent statistics from the National 
Highway Traffic Safety Administration, more than 35,000 lives 
were lost in crashes on U.S. roadways in the year 2015. 
Preliminary estimates indicate a 10 percent increase in the 
first half of 2016. It is important to highlight that 94 
percent of these crashes are the result of human factors or, 
simply put, driver error such as distracted driving--sometimes 
caused by hands-free technology--impaired driving, and 
speeding. These crashes are preventable, and we should be doing 
everything we can to eliminate them.
    The testing and safe deployment of automated vehicle 
technologies has the potential to reduce substantially the 
number of driver-related crashes and fatalities. Let me 
emphasize that point: if this technology were to be perfected, 
automated vehicles could eliminate many of the crashes on our 
Nation's roadways and save thousands of lives each year.
    While fully self-driving autonomous vehicles are still 
years away from being available to the general public, many new 
vehicles already have driver-assisted features such as 
automatic emergency breaking, rearview cameras, my personal 
favorite, and lane-keep assist systems. These technologies are 
already making a difference, saving lives and reducing 
injuries.
    In addition to improving safety, self-driving vehicles can 
provide mobility options to our seniors and disabled people, 
particularly those living in rural communities like my State of 
Maine, where many of our older drivers currently do not have an 
easy way to get to the doctor or to the grocery store. Public 
transportation is nonexistent in much of Maine, and taxi 
service is very limited in rural areas. Seniors who can no 
longer drive often have very few options.
    A self-driving car, or even one with limited automated 
features, could help seniors feel more secure driving at night 
and could help those who currently must rely on others to get 
around, to maintain their independence. A recent survey of 
drivers over the age of 50 showed that almost 80 percent of 
those who plan to buy a car within the next 2 years will be 
seeking automated features such as blind spot warning, crash 
mitigation, and lane departure warning systems. Yet many 
consumers remain wary of purchasing a fully autonomous vehicle 
anytime soon. I know that the RAND Corporation has done a lot 
of work in the area of the potential benefits of automated 
technologies for our seniors.
    To help accelerate the safe testing and development of 
autonomous vehicles, the Department of Transportation released 
its ``Federal Automated Vehicles Policy'' on September 20th, 
which includes vehicle performance guidance, model state 
policy, an assessment of current regulatory tools, and a 
discussion of future regulatory tools that Congress may want to 
consider.
    While this was an important first step, it is clear that 
the DOT's guidance document needs further refinement to help 
ensure that automakers are able to bring the safety and 
mobility benefits of autonomous vehicles into the marketplace 
without unnecessary government regulations. I am particularly 
interested in hearing from our witnesses today on what 
improvements can be made to these guidelines.
    Automobile manufacturers face a number of roadblocks 
integrating autonomous vehicles onto our Nation's highways. 
Some have called on the Administration to put the brakes on 
autonomous vehicle deployment by imposing onerous requirements 
through a rulemaking process which could take several years to 
finalize, and my fear is that that would stifle innovation in 
the meantime.
    We must recognize that automated vehicle technology is 
advancing faster than government agencies can act, and in this 
instance impeding the advancement of technology may prevent us 
from saving lives. On the other hand, we also know that there 
have been some problems with the automated technology that has 
increased the incidence of distracted driving and perhaps led 
to additional accidents. The Department's guidance provides a 
more effective voluntary 15-point safety assessment that 
incentivizes automakers to certify that they have addressed all 
relevant issues ranging from cybersecurity to human-machine 
interface to ethical considerations.
    Another challenge facing autonomous vehicles is the vast 
number of State and local governments that are seeking to 
regulate this technology. Unlike vehicle safety, which is 
governed by Federal law, the safety and licensing of drivers 
are under the jurisdiction of State governments. While the 
Department's guidance deters States from interfering with 
Federal vehicle safety standards, one topic we will explore is 
whether or not DOT's approach also has the effect of 
encouraging State governments to set prohibitive requirements 
related to testing, licensing, and registration for automated 
vehicle testing.
    Given the public's keen interest in self-driving and 
automated vehicles, it is important for State governments to 
take a balanced approach in allowing the research, development, 
safe testing, and deployment of such vehicles. However, I would 
note that one serious accident, such as occurred in Florida, 
can cause great mistrust of this new technology, and that could 
lead to greater State restrictions on testing and deployment. 
It is particularly important that DOT work with automotive 
manufacturers, suppliers, and technology companies, as well as 
with the commercial end users of automated vehicles, to ensure 
that they are operating with an abundance of caution to avoid 
excessive government intervention that could interfere with the 
timely development of technologies that truly could save 
thousands of lives.
    [The statement follows:]
             Prepared Statement of Senator Susan M. Collins
    I am pleased to be joined today by our Ranking Member, Senator Jack 
Reed, as we hold this hearing to examine the role of government in 
enhancing roadway safety through the careful deployment of automated 
and self-driving vehicles, which could revolutionize our transportation 
system.
    I also welcome our panel of witnesses. We are joined today by Mark 
Rosekind, Administrator of the National Highway Traffic Safety 
Administration; Deborah Hersman, President and C.E.O. of the National 
Safety Council; Paul Brubaker, President and C.E.O. of the Alliance for 
Transportation Innovation; and Dr. Nidhi Kalra, Senior Information 
Scientist at the RAND Corporation. I look forward to hearing from each 
of you.
    The potential of this new technology is exciting. Cars that drive 
themselves and avoid accidents. Seniors and disabled individuals able 
to retain or gain their ability to get around town. At first, it sounds 
like science fiction or an advance far off in the future. But this 
technology is being tested and perfected right now, and it could save 
thousands of lives.
    According to the most recent statistics from the National Highway 
Traffic Safety Administration, more than 35,000 lives were lost in 
crashes on U.S. roadways in 2015, and preliminary estimates indicate a 
10 percent increase in the first half of 2016. It is important to 
highlight that 94 percent of roadway crashes are the result of human 
factors, or simply put, driver error, such as distracted driving--
sometimes caused by hands-free technology, impaired driving, and 
speeding. These crashes are preventable, and we should do everything we 
can to eliminate them.
    The testing and safe deployment of automated vehicle technologies 
have the potential to reduce substantially the number of driver-related 
crashes and fatalities. Let me emphasize that point: if the technology 
were perfected, automated vehicles could eliminate many of the crashes 
on our Nation's roadways and save thousands of lives every year.
    While fully self-driving autonomous vehicles are still years away 
from being available to the general public, many new vehicles already 
have driver-assist features such as automatic emergency breaking, 
rearview cameras, and lane-keep assist systems. These technologies are 
already saving lives and reducing injuries on our roadways.
    In addition to improving safety, self-driving vehicles can provide 
mobility options to our seniors and disabled populations, particularly 
those living in rural communities like my State of Maine, where many of 
our older drivers currently do not have an easy way to get to the 
doctor or to the grocery store. Public transportation is nonexistent in 
much of Maine, and taxi service is very limited in rural areas. Seniors 
who can no longer drive often have very few options.
    A self-driving car, or even one with limited automated features, 
could help seniors feel more comfortable driving at night and could 
help those who currently must rely on others to get around to maintain 
their independence. A recent survey of drivers over the age of 50 
showed that almost 80 percent of those who plan to buy a car within the 
next 2 years will be seeking automated features such as blind spot 
warning, crash mitigation, and lane departure warning systems. Yet many 
consumers remain wary of purchasing a fully autonomous vehicle anytime 
soon. I know Dr. Kalra will provide us with more insight on the 
potential benefits of automated technologies for our seniors.
    To help accelerate the safe testing and deployment of autonomous 
vehicles, the Department of Transportation released its ``Federal 
Automated Vehicles Policy'' on September 20th, which includes vehicle 
performance guidance, model State policy, an assessment of current 
regulatory tools, and a discussion of future regulatory tools for 
Congressional consideration.
    While this was an important first step, it is clear that D.O.T.'s 
guidance document needs further refinement to help ensure that 
automakers are able to bring the safety and mobility benefits of 
autonomous vehicles into the marketplace without unnecessary government 
regulations. I am particularly interested in hearing from all of our 
witnesses today on what improvements can be made to these guidelines.
    Automobile manufacturers face a number of roadblocks integrating 
autonomous vehicles onto our Nation's roadways. Some have called on the 
Administration to put the brakes on autonomous vehicle deployment by 
imposing onerous requirements through a rulemaking process, which could 
take several years to finalize, stifling innovation in the meantime.
    We must recognize that automated vehicle technology is advancing 
faster than government agencies can act, and in this instance, impeding 
the advancement of technology may prevent us from saving lives. The 
Department's guidance provides a more effective voluntary 15-point 
``safety assessment'' that incentivizes automakers to certify they have 
addressed all relevant issues ranging from cybersecurity, to human-
machine interface, to ethical considerations.
    Another challenge facing autonomous vehicles is the vast number of 
State and local governments that are seeking to regulate this 
technology. Unlike vehicle safety, which is governed by Federal law, 
the safety and licensing of drivers are under the jurisdiction of State 
governments. While the Department's guidance deters States from 
interfering with Federal vehicle safety standards, one topic we will 
explore is whether or not D.O.T.'s approach also has the effect of 
encouraging State and local governments to set prohibitive requirements 
related to testing, licensing, and registration for automated vehicle 
testing.
    Given the public's keen interest in automated and self-driving 
vehicles, it is important for State and local governments to take a 
balanced approach in allowing the research, development, safe testing, 
and deployment of automated vehicles. However, one serious accident, 
such as occurred in Florida, can cause mistrust of this new technology, 
and that could lead to greater local restrictions on testing and 
deployment. It is particularly important that D.O.T. work with 
automotive manufacturers, suppliers, and technology companies, as well 
as the commercial end users of automated vehicles, to ensure they are 
operating with an abundance of caution to avoid excessive government 
intervention.
    With that, let me call upon my colleague and friend Senator Reed, 
the ranking member, for his opening statement.
    Senator Collins. With that, let me call upon my colleague 
and friend from Rhode Island, Senator Reed, the ranking member, 
for his opening statement.

                     STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Chairman Collins, for 
your leadership on so many issues, but particularly for holding 
this very important hearing on the future of self-driving 
vehicles. Let me join you in welcoming our witnesses. Thank you 
for your service and your expertise.
    Automated and self-driving vehicles are not yet common on 
our roads, but autonomous driving and safety features such as 
automatic emergency brakes and parking assist have been 
introduced gradually over the last several years. Manufacturers 
and innovators are now poised to take transformative leaps in 
the development, integration, and adoption of these 
technologies, and what was once novel is at the brink of 
becoming commonplace.
    As with any change, it brings opportunity as well as risk 
and anxiety. Particularly for the millions of Americans who 
earn a living as American commercial drivers, that is a 
significant issue that we should address. What remains 
unanswered is how this transportation revolution will evolve 
and what steps regulators and industry should take to foster 
and harness the positive aspects of this new technology.
    Today auto manufacturers, ride sharing companies, and other 
investors are funding research and development on driverless 
vehicles. They are also launching pilot programs to gather data 
and introduce consumers to different forms of the technology. 
Uber is allowing customers in Pittsburgh to share rides in 
self-driving cars. Otto, which is a self-driving bus and truck 
company owned by Uber, autonomously delivered commercial goods 
just last month. Tesla is collecting millions of miles of data 
from its semi-autonomous vehicles and announced that it will 
potentially make a full autonomous vehicle starting next year. 
Google has been designing and testing cars with no human driver 
for several years in California. And GM and Lyft have partnered 
to build an autonomous fleet that will be available for ride 
sharing.
    These companies are all using different strategies to 
achieve seemingly different goals. Some seek to provide 
efficient, accessible, and cost-effective transportation 
similar to Transit. Others want to improve freight 
transportation through fleets of autonomous trucks that can 
save gas and operator on the clock. What is clear is that 
technology is fundamentally changing vehicles as we know them.
    This innovation has the potential to dramatically improve 
highway safety, as well as expand mobility access for thousands 
of people, as the Chairman spoke about, seniors particularly. 
And it also has safety features which, as the Chairman 
commented on, are significant. In 2015, more than 35,000 people 
died in crashes on the Nation's highways. The number represents 
an 8 percent increase from the previous year and marked the 
deadliest year on record since 2008. These vehicles might help 
immensely in that regard. NHTSA (National Highway Traffic 
Safety Administration) found that 94 percent of those deaths 
were the result of human error, so autonomous vehicles could be 
a real game changer in this regard.
    We have a responsibility to fulfill this technology's 
promise and foster American innovation. But we also must be 
cognizant of the consequences of these technologies for the 
shifts in the American economy and effects on the American 
worker. Self-driving cars and trucks will certainly demand new 
kinds of jobs and skills, but these jobs may be in different 
sectors of the economy. For millions of Americans, particularly 
those without a college degree or advanced training, driving a 
bus, a cab, or a truck can provide a decent income. In fact, 
for many, it is the ticket to the middle class.
    In the latest year of data available from the Bureau of 
Labor Statistics, there are more than 4 million workers in the 
United States employed as drivers of trucks, taxis, chauffeurs 
or delivery vehicles. All of these are potentially in a space 
where they could be replaced by an autonomous vehicle. So we 
have to make sure that this technology not only enables better 
productivity but that it doesn't disqualify millions, 
literally, of Americans from good, solid jobs.
    We need to think through this policy very thoughtfully. 
This is a broader conversation not involving just the 
technologies but the Department of Labor, policymakers from a 
huge swath of the government, so that we get it right, and we 
get it right for the American workers as well as for the 
technology interest.
    Our regulatory agencies--and the Chairman has made the 
point that it's not just Federal but its State and local--have 
to be harmonized. We have to do this thoughtfully, and that is 
why, again, I commend the Chairman for calling this hearing 
today.
    NHTSA--thank you--recently released a guidance document for 
comment with the intent of promoting technological advancement 
and preventing a patchwork of State regulations. So thank you, 
Administrator Rosekind, for that work.
    There are many questions. When will NHTSA initiate a formal 
rulemaking on self-driving vehicles? When and how will the 
Federal motor vehicle safety standards be updated? How much 
data does NHTSA want to collect from industry and consumers, 
and how will it protect that data from cyber threats?
    We know industry will continue to innovate, deploy, and 
develop these technologies at a faster pace than government can 
respond, and this will present a challenge. We have to 
recognize this up front.
    But again, let me thank you, all of our witnesses for 
participating in our hearing today. I apologize for my Rhode 
Island accent. Other than that, I look forward to the 
testimony. Thank you.
    Senator Collins. Thank you very much, Senator Reed.
    I am going to put all of the witnesses' impressive bios 
into the record so that we can proceed with the testimony since 
I mentioned all of you in my opening statement.
    We will start with the Administrator of the National 
Highway Traffic Safety Administration, known as NHTSA, the 
Honorable Mark Rosekind.
STATEMENT OF THE HON. MARK ROSEKIND, ADMINISTRATOR, 
            NATIONAL HIGHWAY TRAFFIC SAFETY 
            ADMINISTRATION
    Mr. Rosekind. Thank you, Chairman Collins, Ranking Member 
Reed, other members of the committee. I really appreciate you 
holding this hearing today and for the opportunity to testify.
    At NHTSA, our mission is to save lives on America's 
roadways. For 50 years, we have carried out that mission by 
writing and enforcing strong regulations to make vehicles 
safer, fighting against drunk-driving, building a national 
consensus about seatbelt use, and so many other efforts that 
have saved hundreds of thousands of lives on America's roads.
    But we have far more work to do, and that work can be 
measured by some alarming numbers that all of you cited 
already. In 2015, we lost 35,092 people on our public roads. At 
NHTSA, we know those are not just numbers. Those are mothers 
and fathers, brothers and sisters, colleagues, co-workers, 
friends. And the problem is that it's all getting worse.
    Last month we announced that roadway fatalities in the 
first half of this year are up over 10 percent, and it is 
against this backdrop that the Department of Transportation, 
under the leadership of Secretary Anthony Foxx, has been 
working so hard on our efforts to accelerate the safe 
deployment of automated vehicle technologies, because while 
automated vehicles carry enormous potential to transform 
mobility and reshape our transportation system, it is truly 
their awesome potential to revolutionize roadway safety that 
has all of us so motivated.
    And there is one more number that helps us explain why, and 
that number is 94. That's the percentage of crashes that can be 
tied back to human choice or error. That's a choice to speed or 
drive drunk, send a text message from behind the wheel, or 
misjudge the stopping distance. That 94 percent represents the 
untold potential of automated vehicle technologies.
    We envision a future where advanced technologies not only 
help reduce crashes but a world with fully self-driving cars 
that hold the potential to eliminate traffic fatalities 
altogether.
    The Federal Automated Vehicles Policy, which the Department 
issued on September 20th, is the world's first comprehensive 
government action to guide the safe and efficient development 
and deployment of these technologies.
    The policy covers four areas: one, vehicle performance 
guidance for automakers, tech companies, researchers, and other 
developers, testers, and deployers of automated vehicle 
technologies; two, a model state policy to build a consistent 
national framework for the testing and operation of automated 
vehicles; three, an exploration of the use of our current 
regulatory tools that can be used to advance these 
technologies; and four, a discussion of possible new tools that 
the Federal Government may need to promote the safe deployment 
of advanced technologies as the industry continues to develop.
    I'd like to share just for a few moments a little bit about 
our approach.
    For 50 years, our traditional approach at NHTSA has largely 
been reactive. NHTSA prescribes safety standards and then 
responds to problems as they arise. A traditional method of 
regulating these new technologies would be to engage solely in 
the rulemaking process, writing new regulations that prescribe 
specific standards and typically take years to take effect. Our 
view is that approach would be slow, it would stymie innovation 
and would stall the introduction of these technologies.
    Our policy takes a very different path, built on proactive 
safety which will better serve both safety and innovation. This 
policy allows us to work with automakers and developers on the 
front end, to ensure there are sound approaches to safety 
throughout the entire development process. This is a new 
approach, and it's going to take some adjustment for everyone 
involved.
    But we are confident that it will help us accomplish two 
goals: first, to make sure that new technologies are deployed 
safely; and second, to make sure that we don't get in the way 
of innovation. Our approach is non-prescriptive. It does not 
tell developers how they must provide safety but instead it 
builds a transparent and proactive approach to ensure that they 
are properly addressing the critical safety areas.
    But that future is not without threats. As President Obama 
wrote when announcing the policy, quote, ``The quickest way to 
slam the brakes on innovation is for the public to lose 
confidence in the safety of new technologies. Both government 
and industry have a responsibility to make sure that doesn't 
happen.''
    It is our view that the best way that we can build that 
public confidence is by working together, showing the public 
that the government is on the side of innovation, and that the 
industry is on the side of safety.
    I submit the balance of my statement for the record, and I 
look forward to taking your questions. Thank you.
    [The statement follows:]
                Prepared Statement of Hon. Mark Rosekind
    Chairman Collins, Ranking Member Reed, and Members of the 
Committee: Thank you for holding this hearing and inviting me to 
testify. My name is Mark Rosekind, and I am the Administrator of the 
National Highway Traffic Safety Administration, or NHTSA.
    At NHTSA, our mission is to save lives on America's roadways. For 
50 years, we have carried out that mission by writing and enforcing 
strong regulations to make vehicles safer, fighting against drunk 
driving, building a national consensus about seatbelt use, and so many 
other efforts that have saved hundreds of thousands of Americans.
    But we have far more work to do. And that work can be measured by 
some alarming numbers.
    In 2015, we lost 35,092 people on our public roads. At NHTSA, we 
know that is not just a number. Every one of those is a mother or 
father, a son or daughter, a coworker, a friend. In the United States, 
we lose the equivalent of a fully-loaded 747 on our roadways every 
single week.
    And the problem is getting worse. Last month we announced that 
roadway fatalities in the first half of this year are up over 10 
percent.
    It is against this backdrop that the Department of Transportation, 
under the leadership of Secretary Anthony Foxx, has been working so 
hard on our efforts to accelerate the safe deployment of automated 
vehicle technologies.
    Because while automated vehicles carry enormous potential to 
transform mobility, reshape our transportation system and transform our 
economy, it is their awesome potential to revolutionize roadway safety 
that has us so motivated.
    And there is one more number that helps explain why. That number is 
94. That is the percentage of crashes that can be tied back to a human 
choice or error. That's a choice to speed or drive drunk, to send a 
text message from behind the wheel or misjudge the stopping distance.
    And that 94 percent figure represents the untold potential of 
automated vehicle technologies. We envision a future where advanced 
technologies not only help reduce crashes, but also make possible a 
world in which fully self-driving cars hold the potential to eliminate 
traffic fatalities altogether.
    The Department of Transportation views this moment as the cusp of a 
new technological revolution that may transform roadway safety forever.
    The Federal Automated Vehicles Policy, which the Department and 
NHTSA issued in mid-September, is the world's first comprehensive 
government action to guide the safe and efficient development and 
deployment of these technologies. Today, I will discuss that Policy, 
how we developed it, and where we are going next.
    In January of this year, Secretary Foxx made two important 
announcements.
    First, he announced that President Obama was making a $3.9 billion 
budget request for automated vehicles research. This is a major 
commitment from the Administration to advance this technology, and DOT 
continues to strongly support this request.
    Second, he directed NHTSA to write a new policy covering four 
areas: One, vehicle performance guidance for automakers, tech 
companies, researchers and other developers and testers of automated 
vehicle technologies. Two, a model State policy to build a consistent 
national framework for the testing and operation of automated vehicles. 
Three, an exploration of the use of our current regulatory tools that 
can be used to advance these technologies. And four, a discussion of 
possible new tools that the Federal Government may need to promote the 
safe deployment of advanced technologies as the industry continues to 
develop.
    Over the subsequent 9 months, NHTSA hit the road, traveling to 
discuss automated vehicles with industry, academics, State governments, 
safety and mobility advocates, and the public. This Policy is the 
product of that significant input.
    Before discussing the individual components, I would like to share 
a few thoughts about our approach.
    First it is important to understand our traditional approach to 
regulating motor vehicles. For 50 years, our approach has largely been 
reactive. NHTSA has prescribed safety standards, and then responded to 
problems as they arise.
    A traditional approach to regulating these new technologies would 
be to engage solely in rulemaking process, writing new regulations that 
prescribe specific standards. Our view is that approach would stymie 
innovation and stall the introduction of these technologies.
    It would also be a long process. Rulemakings, and the research 
necessary to support them, take years, meaning that any rule we might 
offer today would likely be woefully out-of-date by the time it took 
effect, given the pace of technological development in this space. Let 
me be clear that using the notice-and-comment rulemaking process to 
establish new standards will absolutely play an important role as this 
technology matures and is adopted. But it is not the only tool in our 
bag, and we have created an innovative approach that will better serve 
both safety and innovation in the immediate term.
    Our Policy represents a continuation of the new proactive safety 
approach that we have built at NHTSA under the leadership of Secretary 
Foxx. This Policy allows NHTSA to work with automakers and developers 
on the front end, to ensure that sound approaches to safety are 
followed throughout the entire design and development process. This is 
a new approach, and it's going to take some adjustment for everyone 
involved. But we are confident that it will help us accomplish two 
goals: first, to make sure that new technologies are deployed safely; 
and second, to make sure we don't get in the way of innovation.
    As the Federal regulator with the responsibility of ensuring 
vehicles are as safe as they can possibly be, we play an important role 
on behalf of the American public to ensure that vehicle technologies do 
not present safety threats.
    At the same time, we recognize the great lifesaving potential of 
these new technologies, and want to do everything we can to make sure 
that potential is fully realized and that they are deployed as quickly 
as possible to save as many lives as we can.
    Some people have talked about safety and vehicle automation as on 
the opposite ends of a spectrum, as if there were a trade-off between 
safety and innovation. But at the Department of Transportation, we view 
our role as promoting safety innovation. Our Policy is designed to 
promote the safe and expeditious deployment of new technologies that 
have the potential to reduce crashes and save lives.
    Our approach is not prescriptive. It does not tell developers how 
they must provide safety, but instead it builds a transparent and 
proactive approach to ensure that they are properly addressing the 
critical safety areas.
    Finally, I want to be clear that while this Policy establishes an 
important framework for the development and deployment of automated 
vehicles, it is not the final word. In our view, this Policy is the 
right tool at the right time. It answers a call from industry, State 
and local governments, safety and mobility advocates and many others to 
lay a clear path forward for the safe deployment of automated vehicles 
and technologies.
    But we intend this Policy to evolve over time. That evolution will 
be based on comments we receive from the public, our own experience in 
implementing it over the coming months and years, and, perhaps most 
importantly, based on the rapid evolution of the technology itself. We 
have designed this Policy to be nimble and flexible, to allow us to 
stay at the leading edge of this revolution.
    Before I discuss each component of the Policy, allow me to say a 
few words on definitions.
    First, it is important to note that with this Policy, we are 
officially adopting the SAE International levels of automation, ranging 
from zero to five. The primary focus of the Policy overall is on what 
we refer to as ``highly automated vehicles'', or HAVs. Those are 
vehicles at levels three through five on the SAE level scale, or 
vehicles that--at least in some circumstances--take over full control 
of the driving task. A portion of the first section of the Policy also 
applies to Level 2 vehicle systems, which include advanced driver-
assistance systems already on the road today.
    The Policy covers all automated vehicles that are designed to 
operate on public roads. That includes personal light vehicles, as well 
as heavy trucks. It even includes vehicles that might be designed to 
not carry passengers at all.
    Finally, I note that most of the Policy is effective immediately. 
We expect that developers and manufacturers of AV technologies will use 
the Policy to guide their safety approach. Some portions of the 
Policy--notably the Safety Assessment Letter in the Vehicle Performance 
Guidance--will become effective following a Paperwork Reduction Act 
process that we expect to be completed within the next few months.`
Vehicle Performance Guidance for Automated Vehicles
    The first section is the Vehicle Performance Guidance for Automated 
Vehicles. This is guidance for manufacturers, developers and other 
organizations involved in the development of automated vehicles. The 
heart of the Guidance is a 15 point ``Safety Assessment'' that spells 
out the critical safety areas that developers should address for the 
safe design, development, testing and deployment of highly automated 
vehicles prior to the sale or operation of such vehicles on public 
roads.
    The Safety Assessment covers areas such as the operational design 
domain--essentially the where and when an AV is designed to operate 
automatically--fallback conditions, cybersecurity, privacy, and the 
human-machine interface.
    We identified these areas through our extensive consultations with 
industry, academia and advocates as the critical safety issues that 
must be addressed to ensure that automated technologies are safe.
    Critically, the Guidance does not specify how AV developers are 
intended to address the areas. Instead, the Guidance asks developers to 
document their own processes and then provide NHTSA with a Safety 
Assessment letter in which they explain their approach. This process is 
expected to yield a variety of different approaches for every one of 
the areas. That is intentional, and is one of the ways that we are 
preserving and promoting the innovation process. Government does not 
have all the answers, and our view is that the more approaches that 
innovators take to solving these problems, the more likely we are to 
find the best way.
Model State Policy
    The second section is the Model State Policy. For the last 50 
years, there has been a fairly clear division of responsibility between 
the Federal Government and the States for the oversight and regulation 
of motor vehicles. Generally speaking, it has been the Federal 
Government's responsibility to regulate motor vehicles and equipment 
safety, while the States have regulated drivers and traffic laws.
    That division of responsibility may be less clear in a highly 
automated vehicle world where increasingly the vehicle's automated 
systems become the driver.
    The Model State Policy delineates the Federal and State roles for 
the regulation of these vehicles, and it outlines the approach we 
recommend to States as they consider the regulation of testing and 
operation of automated vehicles on their public roads. Our goal is to 
build a consistent national framework for the development and 
deployment of automated vehicles, so that users can take their vehicles 
across State lines as they can today, and so that developers are 
building toward a single set of standards, rather than 50.
    The Model State Policy confirms that States retain their 
traditional responsibilities for vehicle licensing and registration, 
traffic laws and enforcement, and motor vehicle insurance and liability 
regimes. At the same time, the Policy reaffirms that the Federal 
Government will continue to be responsible for the oversight of vehicle 
safety and design, including automated features.
    The Policy was developed in close coordination with the American 
Association of Motor Vehicle Administrators (AAMVA), individual States 
and other stakeholders. It suggests recommended areas for States to 
consider in the development of their own regulations, including testing 
regimes and registration. It also identifies a number of areas that 
need to be further discussed and developed, including how law 
enforcement will interact with highly automated vehicles, and the 
development of a consistent approach to insurance and liability 
challenges. We also note in the Policy that States do not have to take 
any action at all.
NHTSA's Current Regulatory Tools
    The third section addresses NHTSA's Current Regulatory Tools. This 
section discusses how NHTSA will use the tools currently at its 
disposal to promote and expedite the safe development and deployment of 
highly automated vehicles.
    The first of those tools discussed is our interpretation authority. 
The current Federal Motor Vehicle Safety Standards generally do not 
contemplate automated vehicle technologies. Therefore, it can sometimes 
be unclear how those standards apply to advanced technologies. In this 
section, we lay out the process by which developers of AV technologies 
can submit interpretation requests to the agency to determine whether 
and how their technologies conform with the standards. The agency also 
commits to a greatly expedited process for reviewing these 
interpretation requests. On simple safety-related interpretation 
requests, we commit to providing answers within 60 days. Compared to 
historical norms, that is lightning speed.
    The second tool discussed is our exemption authority. Congress has 
granted NHTSA the authority to provide exemptions to manufacturers to 
deploy vehicles that do not conform to the Federal Motor Vehicle Safety 
Standards. While these exemptions are admittedly limited--to 2,500 
vehicles for each of 2 years--the Agency views this tool as an 
important way of enabling a manufacturer to put a test fleet on the 
road to gather critical safety data and improve its technologies. The 
Policy similarly commits to an expedited process on simple safety-
related exemptions, providing an answer within 6 months from the 
application.
    The Agency's broadest power is its ability to write new safety 
standards. While this tool tends to take the longest amount of time--
usually a period of years--it is the method that will ultimately allow 
for the large-scale deployment of nontraditional vehicle designs and 
equipment under consistent, broadly applicable standards. In addition, 
to the extent that performance-based standards are adopted, this tool 
has the potential to allow for technological innovation while 
maintaining safety.
    In this section, we also highlight that the Agency retains its 
broad defects and enforcement authority. We use that authority to 
investigate any unreasonable risks to safety, and to recall unsafe 
vehicles from the road. The same day NHTSA issued the Policy, we also 
issued an Enforcement Guidance Bulletin that makes clear that the 
Agency's traditional enforcement authorities extend to advanced vehicle 
technologies.
Modern Regulatory Tools
    The fourth and final section of the Policy discusses Modern 
Regulatory Tools, identifying 12 potential new tools, authorities and 
resources that could aid the safe deployment of new lifesaving 
technologies and enable the Agency to be more nimble and flexible.
    Today's governing statutes and regulations were developed before 
highly automated vehicles were even a remote notion. For that reason, 
current authorities and tools alone may not be sufficient to ensure 
that highly automated vehicles are introduced safely, and to realize 
their full safety promise. This challenge requires NHTSA to examine 
whether the ways in which the Agency has addressed safety for the last 
several decades should be expanded and supplemented.
    The new tools identified in this section include premarket 
approval, expanded exemption authority, imminent hazard authority, new 
research and hiring tools, and others that may better equip the Agency 
in the future as more technologies move from the lab to the road. These 
tools are offered for consideration by policymakers, industry, 
advocates and the public as we move forward.
    One thing we know for certain is that the agency will need 
additional resources as this technology develops and is adopted. I have 
great confidence in the NHTSA team's expertise and ability. But it is 
undeniable that as more automakers move technology from the lab to the 
test track to the road, we will need to make sure our Agency is 
properly resourced to maintain pace.
    We continue to support the President's budget request for more 
research dollars, and are committed to working with you in the coming 
months and years to identify what resources--both in personnel and 
research funding--will be necessary to achieve our mission.
Next Steps
    Finally, with respect to the Policy, I would like to highlight once 
again that we fully intend this Policy to be the first iteration of 
many to come. The Policy is effective now, and will continue to evolve 
based on feedback and our experience implementing it, and, most 
importantly, to keep pace with innovation. To that end, each section of 
the Policy highlights a series of next steps that we will take to 
implement and improve the Policy over time.
    The first is our solicitation of public input. We are doing that 
through an open comment period that is open now through November 22nd. 
NHTSA is also hosting a series of public workshops that began earlier 
this month on different sections of the Policy. I will note here that 
the full Policy, additional materials, and the portal for public 
comments can be found at www.nhtsa.gov/AV.
    Over the coming months we will be engaging experts to review the 
Policy, issuing further guidance on the Safety Assessment letter, and 
engaging stakeholders across the spectrum to help flesh out other areas 
of the Policy. For example, we will work with law enforcement 
organizations to further the conversation about how AVs will interact 
with the police, and work with industry to build the framework for the 
data sharing discussed in the Vehicle Performance Guidance. We are also 
engaged with other operating modes throughout the Department of 
Transportation, recognizing the roles and responsibilities they play 
with respect to public transit, commercial freight operations, and the 
highway system on which automated vehicles will operate.
    We do not pretend to have answered every question in this Policy, 
and we will continue the conversation with the public about the best 
ways to develop and improve our Policy as we learn more. To that end, 
the Department of Transportation has committed to reviewing and 
updating the Policy annually.
    As I conclude, I want to say a few words about the importance of 
the present moment in history. We have an industry that is rapidly 
developing innovative new technologies. And we have a government that 
is inspired and excited about the future of this technology.
    But that future is not without threats. Bad actors or bad incidents 
could threaten to derail our collective efforts.
    I want to close with the words President Obama used when he 
announced our new Policy in an op-ed in the Pittsburgh Post-Gazette. He 
wrote, ``There are always those who argue that government should stay 
out of free enterprise entirely, but I think most Americans would agree 
we still need rules to keep our air and water clean, and our food and 
medicine safe. That's the general principle here. What's more, the 
quickest way to slam the brakes on innovation is for the public to lose 
confidence in the safety of new technologies. Both government and 
industry have a responsibility to make sure that doesn't happen.''
    It is our strong view that the best way we can build that public 
confidence is by working together, showing the public that the 
government is on the side of innovation and the industry is on the side 
of safety. We encourage you to join with us as we continue to develop 
this Policy and show the American public that their safety is the 
highest priority for all of us.
    Thank you.

    Senator Collins. Thank you very much.
    Ms. Hersman.
STATEMENT OF HON. DEBORAH HERSMAN, PRESIDENT AND CEO, 
            NATIONAL SAFETY COUNCIL
    Ms. Hersman. Chairman Collins, Senator Reed, thank you for 
having me today. I'd like to acknowledge my board chair, Mr. 
John Surma, who is here with me in the audience today.
    Today we have millions of drivers behind the wheel, we 
spend millions of dollars on education and enforcement 
campaigns, but we still lose tens of thousands of people on our 
roadways and experience billions of dollars in economic losses 
as a result of highway crashes. In spite of safer vehicle 
designs and record-setting seatbelt use rates across the 
Nation, operating a motor vehicle remains one of the deadliest 
things that we do every day.
    Compared to other high-income countries, the United States' 
death rate is more than double our counterparts, and it's not 
because we don't have automated vehicles. It's because we 
aren't willing to do the hard things that we know will save 
lives.
    Three to five thousand lives per year would be saved if 
everyone buckled up. Ten thousand lives would be saved if 
nobody drove drunk. Just three technologies that are available 
on cars today--automatic emergency braking, lane departure 
warning, and blind spot detection--if these were all standard 
equipment on cars, 10,000 lives could be saved.
    The AV policy begins an important discussion, and we 
applaud NHTSA and DOT for issuing it. Federal leadership on 
motor vehicle safety is necessary because we can only have one 
level of safety when it comes to our stakeholders and our 
constituents. Your constituents need to be confident that 
vehicles are safe regardless of where they reside. 
Manufacturers need certainty in order to invest in design and 
production, and States do not possess the expertise or the 
resources to replicate design, testing, and reporting programs.
    Further, a patchwork of requirements will result in 
confusion for consumers and increased costs for manufacturers 
and operators attempting to comply with myriad requirements.
    Finally, the absence of a safe, workable standard will 
drive development and testing and deployment overseas, 
resulting in the flight of innovation from the United States 
and the jobs that accompany it to locations outside of our 
borders.
    NSC fully believes that automated vehicles have the 
potential to save lives and prevent injuries, but here are 
several key issues that we recommend that policymakers 
consider.
    Delayed integration into the fleet. It will be a long time 
before highly automated vehicles replace our current fleet. How 
do we ensure rapid acceptance and adoption of lifesaving 
technologies that are available today? Electronic stability 
control paints the picture of the headwinds that we're facing.
    DSRC--also known as V2V, V2I, and V2X--complementary 
technology must be taken into account. We need a belt-and-
suspenders approach when it comes to highway safety.
    Data sharing in a post-crash event. My experience at the 
NTSB taught me that we must rely on the data for truths. If you 
can't access it, you won't learn the lessons.
    De-identified data. The automotive industry must figure out 
how to balance privacy and proprietary concerns against the 
predictive value of big data. Too many lives are at stake. 
Cooperation will help us unravel unintended consequences and 
identify new failure modes.
    Consumer education. Today, 40 percent of consumers are 
startled by the way that their car has behaved. We will not 
realize the full benefit of technology if we don't keep human 
beings in the loop.
    Lack of common taxonomy and standards. Today, manufacturers 
have multiple names and different performance expectations for 
similar systems. Shouldn't all AEB systems prevent collisions?
    NHTSA resources. We cannot ask NHTSA to do more with less. 
Automated vehicles will require more evaluation, more testing, 
and more expertise than NHTSA possesses today.
    Although we can imagine a future with automated vehicles, 
the transition from Level 1 to Level 5 will be messy as we deal 
with predictable human-machine issues. We cannot afford to 
ignore the carnage on our roadways that is a national epidemic. 
Efforts like Road to Zero will decrease fatalities today, 
tomorrow, and in the future if we embrace proven counter-
measures and accelerate deployment of effective ADAS 
technologies and highly automated vehicles.
    The National Safety Council appreciates the committee's 
leadership. If safety for the traveling public is the ultimate 
goal, advanced technology provides the most promising 
opportunity to achieve that outcome and will go a long way 
toward eliminating preventable deaths in our lifetime. Thank 
you.
    [The statement follows:]
            Prepared Statement of Hon. Deborah A.P. Hersman
    Chairman Collins, Ranking Member Reed and other members of the 
subcommittee, thank you for inviting me to testify before you today. 
The National Safety Council (NSC) is a 100-year-old nonprofit with a 
vision to end preventable deaths in our lifetime at work, in homes and 
communities and on the road through leadership, research, education and 
advocacy. Our more than 13,500 member companies represent employees at 
more than 50,000 U.S. worksites. For decades we have advocated for 
safer cars, safer drivers and a more forgiving environment in and 
around vehicles. We have led large scale public education campaigns on 
the importance of seatbelts and airbags, eliminating distracted 
driving, and helping consumers understand the technologies in their 
vehicles to reduce deaths and injuries on our roadways. We also educate 
close to 1.3 million drivers a year in Defensive Driving courses.
   national highway traffic safety administration automated vehicles 
                                 policy
    The rapid pace of technological advancement means that regulators 
are hard-pressed to keep ahead of industry as manufacturers offer 
systems unheard of just a decade ago. However, NSC believes there are 
appropriate and necessary roles for both innovation by manufacturers 
and regulation by officials charged with ensuring public safety. The 
NHTSA (National Highway Traffic Safety Administration) Federal 
Automated Vehicles Policy (AV policy) is a step in the right direction. 
It provides a framework in which manufacturers can work and States can 
establish appropriate enforcement and oversight, while underscoring 
NHTSA safety authority and recognizing the need for additional tools to 
keep pace in this fast-moving environment. It also provides guidance 
for more uniform Federal oversight rather than a potential patchwork of 
regulations by the States.
    Federal leadership on motor vehicle safety is necessary because 
there should only be ONE LEVEL OF SAFETY. Consumers need confidence in 
vehicles regardless of where they reside; manufacturers need certainty 
in order to invest in design and production, and States do not possess 
the expertise and the resources to replicate design, testing and 
reporting programs. Further, a patchwork of requirements will result in 
confusion for consumers and increased cost for manufacturers and 
operators attempting to comply with a myriad of requirements. Finally, 
the absence of a safe, workable standard will drive development, 
testing and deployment overseas, resulting in the flight of innovation 
and the jobs that accompany it to locations outside of the U.S.
            the lifesaving potential of advanced technology
    NSC believes advanced vehicle technology, up to and including fully 
automated vehicles, can provide many benefits to society. The most 
important contribution will be the potential to greatly reduce the 
number of fatal crashes on our roadways, which are increasing. Every 
day we lose approximately 100 people in motor vehicles crashes, and 
every year more than 4 million people are injured. Beyond the human 
toll, these deaths and injuries cost society over $379 billion, 
including productivity losses, medical expenses, motor vehicle property 
damages and employer costs.\1\
---------------------------------------------------------------------------
    \1\ Injury Facts 2016.
---------------------------------------------------------------------------
    NSC data reveal that the 19,100 roadway fatalities during the first 
6 months of 2016 are 9 percent higher than the same period last year 
and 18 percent higher than the same period 2 years ago. If we are to 
make a meaningful change in this trend, there must be a sense of 
urgency coupled with large, near term gains to save lives on our 
roadways.

                    Motor Vehicle Deaths on the Rise
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Source: NSC analysis of National Center for Health Statistics (NCHS) 
mortality data and NSC estimate for 2016.

    While the absolute numbers of fatalities change from year to year, 
many of the same behavioral problems remain persistent and have been 
represented in the data for decades. For example, in 2014:
    9,967 people were killed in alcohol-impaired driving crashes \2\
---------------------------------------------------------------------------
    \2\ Https://crashstats.nhtsa.dot.gov/Api/Public/Publication/812231.
---------------------------------------------------------------------------
    3,179 people were killed in distraction related crashes \3\
---------------------------------------------------------------------------
    \3\ Https://crashstats.nhtsa.dot.gov/Api/Public/ViewPublication/
812260.
---------------------------------------------------------------------------
    9,385 people were killed while unrestrained.\4\
---------------------------------------------------------------------------
    \4\ Https://crashstats.nhtsa.dot.gov/Api/Public/Publication/812246.
---------------------------------------------------------------------------
    NHTSA estimates that 94 percent of all fatal crashes have an 
element of human error. Therefore, if we are to eliminate or reduce the 
number of fatalities on our roadways, advances in vehicle technology 
must be part of the solution. However, it will likely be decades before 
we have meaningful fleet penetration of fully automated vehicles.
    Last month, the NSC and the National Transportation Safety Board 
(NTSB) hosted a full day event with dozens of expert panelists focused 
on Reaching Zero Crashes: A dialogue on the Role of Advanced Driver 
Assistance Systems (ADAS).\5\ While there is a great deal of excitement 
about highly automated vehicles (HAVs), automated vehicles and their 
potential to save lives, it is important to recognize that many legacy 
technologies represent the building blocks for fully automated 
vehicles. Greater consumer acceptance of the dozens of safety 
technologies that are available today would lead to more rapid adoption 
of them, saving lives and preventing injuries.
---------------------------------------------------------------------------
    \5\ Http://www.ntsb.gov/news/events/Pages/2016_dte_RT_agenda.aspx.
---------------------------------------------------------------------------
    As an example, Electronic Stability Control (ESC) is a technology 
that uses automatic computer controlled braking of individual wheels to 
help the driver maintain control in risky driving scenarios. ESC 
primarily mitigates single vehicle, loss of control crashes in which 
drivers would run off the road. For passenger cars as well as light 
trucks and vans, it is estimated that ESC systems have saved more than 
4,100 lives during the 5-year period from 2010 to 2014, but 
incorporation into vehicles on the road remains slow.\6\ The following 
charts from the Highway Data Loss Institute (HDLI) reveal how slowly 
ADAS technologies are achieving penetration in the U.S. fleet due to 
normal turnover of inventory--with the average age of cars in the U.S. 
fleet being 11.5 years old.\7\ Electronic stability control has been 
available for decades and was mandated on all new passenger cars by the 
2012 model year, but in 2015 only 40 percent of registered vehicles 
were equipped with ESC. Despite a clear life-saving benefit, full fleet 
penetration of this technology is not predicted until the 2040s.\8\
---------------------------------------------------------------------------
    \6\ Https://crashstats.nhtsa.dot.gov/Api/Public/ViewPublication/
812277.
    \7\ Http://www.rita.dot.gov/bts/sites/rita.dot.gov.bts/files/
publications/national_transportation_
statistics/html/table_01_26.html_mfd.
    \8\ Http://www.ntsb.gov/news/events/Documents/
2016_dte_RT_p1_p3_moore.pdf.
---------------------------------------------------------------------------

   New Vehicle Series With Electronic Stability Control by Model Year
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Source: HLDI.

 Registered Vehicles With Electronic Stability Control by Calendar Year
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Source: HLDI.

      Registered Vehicles With Available ESC, Actual and Predicted
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Source: HLDI.

    ADAS already operate on the roadways today, but more could be done 
to encourage greater fleet penetration. Features like lane departure 
warning systems, blind spot monitoring, adaptive cruise control and 
others help to prevent or mitigate crashes. The cost of these 
technologies is declining and their impact is measurable. According to 
the Insurance Institute for Highway Safety (IIHS), if four current 
technologies--forward collision warning/mitigation, lane departure 
warning/prevention, side view assist/blind spot monitoring, and 
adaptive headlights--were deployed in all passenger vehicles, they 
could prevent or mitigate as many as 1.86 million crashes and save more 
than 10,000 lives per year.\9\ However, front crash prevention, 
commonly referred to as automatic emergency braking, which was an 
option in about half new 2015 model year cars, was in only 8 percent of 
registered cars in 2015.\10\
---------------------------------------------------------------------------
    \9\ Http://dx.doi.org/10.1016/j.aap.2010.10.020.
    \10\ Http://www.ntsb.gov/news/events/Documents/
2016_dte_RT_p1_p3_moore.pdf.
---------------------------------------------------------------------------

 Crashes Relevant to 4 Crash Avoidance Systems FARS and GES, 2004-2008
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Source: Insurance Institute for Highway Safety.

    Similar conclusions were reached in a July 2016, Carnegie Mellon 
study which stated that just three technologies--forward collision 
warning, lane departure warning and blind spot monitoring--could have 
prevented or reduced as many as 1.3 million crashes annually and over 
10,000 fatal crashes.\11\ This study further found that almost one 
quarter of all crashes could be affected by these crash avoidance 
systems, but only 2 percent of 2013 model year cars included these 
systems as standard.
---------------------------------------------------------------------------
    \11\ Http://dx.doi.org/10.1016/j.aap.2016.06.017.
---------------------------------------------------------------------------
    While many of these technologies are available on higher value cars 
or as part of an upgraded technology package today, they are not 
standard equipment on all makes and models. Safety should not be just 
for those who can afford it, especially for technologies that will 
result in thousands of lives saved every year. The Carnegie Mellon 
study estimated that if all light-duty vehicles were equipped with the 
three technologies, they would provide a lower bound annual benefit of 
about $18 billion. With 2015 pricing, it would cost about $13 billion 
to equip all light-duty vehicles with the three technologies, resulting 
in an annual net benefit of about $4 billion or a $20 per vehicle net 
benefit. By assuming all relevant crashes are avoided, the total upper 
bound annual net benefit from all three technologies combined is about 
$202 billion or an $861 per vehicle net benefit, at current technology 
costs.
    NSC recognizes and applauds the voluntary commitment made earlier 
this year by 20 automakers to include automatic emergency braking (AEB) 
on all vehicles sold in the U.S. by 2022. Toyota has already committed 
to beat this date by several years. Given the slow turnover of the 
fleet, we encourage other manufacturers to view the 2022 date as a 
finish line rather than a starting point and accelerate the roll out of 
AEB and other lifesaving technologies.
    Whether mandated or optional, in many cases these systems can 
perform driving tasks more predictably, more conservatively and more 
safely than a human driver, and may act without driver input if a 
driver is distracted, impaired or incapacitated. However, because there 
are no minimum standards for many of these technologies, legitimate 
questions about their effectiveness remain. The line between ADAS and 
highly automated vehicles may be blurred, as we have progressed far 
down the path of advanced features with few questions and widespread 
acceptance of semi-automated features.
                  dedicated short range communication
    Another component of ADAS and automated vehicle systems is 
dedicated short range communication (DSRC), which would allow vehicles 
to communicate over dedicated spectrum bands with each other, 
pedestrians, and infrastructure to prevent collisions. This technology, 
often referred to as V2V (vehicle-to-vehicle), V2I (vehicle-to-
infrastructure), V2P (vehicle-to-pedestrian), or V2X (vehicle-to-
everything), is pending a rulemaking decision by NHTSA to establish 
performance standards. NSC encourages NHTSA to release this standard 
soon so that implementation of V2X can be more widespread.
    DSRC can create redundant safety systems in motor vehicles. In 
other modes of transportation, fail-safe designs can support operator 
error, but in highway vehicles that task has fallen solely on drivers. 
DSRC would allow a vehicle to communicate with a red light to 
compensate for a fatigued driver, stop a car to prevent a collision 
with a pedestrian if a driver fails to detect him or her, and prevent 
or mitigate collisions between vehicles equipped with DSRC. DSRC has 
been deployed by some manufacturers, but NSC believes it is an 
important option in a safe systems approach to the design of HAVs and 
anticipates it will be more widely deployed if there is more regulatory 
certainty.
                         education and training
    One component in the AV policy that should be a requirement moving 
forward is the incorporation of driver education and training about new 
safety technologies. With nearly 17.4 million new passenger cars and 
trucks sold in 2015,\12\ understanding the technology on these vehicles 
is necessary, yet a University of Iowa survey found that 40 percent of 
respondents reported they had experienced a situation in which their 
vehicle acted in an unexpected way.\13\ When this occurs in a real-life 
driving situation, among multiple drivers, it can lead to disastrous 
outcomes.
---------------------------------------------------------------------------
    \12\ Http://www.autoalliance.org/auto-marketplace/sales-data.
    \13\ University of Iowa. National Consumer Survey of Driving Safety 
Technologies. July 30, 2015. Accessible at http://ppc.uiowa.edu/sites/
default/files/national_consumer_survey_
technical_report_final_8.7.15.pdf.
---------------------------------------------------------------------------
    The National Safety Council and our research partners at the 
University of Iowa are focused on educating consumers about in-vehicle 
safety technology through our MyCarDoesWhat campaign.\14\ This brand 
agnostic education campaign informs drivers about how safety 
technologies work, how to best interact with them, and how to identify 
situations when the technology may not perform optimally and should not 
be relied upon. Because of the need for continued human involvement in 
the operation of many of these features, the campaign tagline is You 
are your car's best safety feature.
---------------------------------------------------------------------------
    \14\ www.mycardoeswhat.org.
---------------------------------------------------------------------------
    Visitors to MyCarDoesWhat.org realize improvement in general 
knowledge and accurate comprehension of vehicle safety features. 
Drivers cannot effectively use these life-saving technologies if they 
do not understand both their functions and limitations. The AV policy 
proposes that this education be delivered in multiple ways, including 
computer based, hands-on and virtual reality training, and other 
innovative approaches. The MyCarDoesWhat education campaign follows 
that approach, and is developing virtual reality modules for release 
early next year. Further, we recommend ongoing evaluation to determine 
the effectiveness of the various messages, methods of delivery and 
media so they can be improved over time.
           standardized nomenclature and performance outcomes
    Another way to reduce consumer confusion is to standardize the 
nomenclature or taxonomy for advanced technologies. NSC, the State of 
California, and Consumer Reports have recommended that, at the very 
least, systems that are not completely automated or Level 5 should not 
be described as such. ADAS, with emphasis on driver assist, represents 
the vehicles being sold today and requires drivers to remain fully 
engaged in the driving task. That fact is often lost in marketing, 
media reports and consumer expectations. Labeling a motor vehicle as 
``autonomous'' today, or even using terms such as ``autopilot'', only 
confuses consumers and can contribute to losses of situational 
awareness around the driving task.
    By establishing standard nomenclature and establishing clear 
performance outcomes, consumers will better understand what they should 
expect from these technologies. For example, vehicles marketed as 
having AEB will not necessarily come to a complete stop before a 
collision.\15\ Some AEB systems only operate at higher speeds, and some 
are designed to slow rather than stop prior to a collision. These 
nuances may not be easily understood by consumers. IIHS reports that 
systems with a warning only, but no automatic corrective action, reduce 
frontal crash rates by about 25 percent, but vehicles with automatic 
braking reduce crashes by more than 40 percent. Vehicles with a warning 
and automatic braking reduce crash rates by about 50 percent. 
Establishing a standardized, results-based, understandable definition 
of AEB and other ADAS technologies would benefit consumers, 
manufacturers, and dealers, as well as organizations that evaluate 
vehicles for their safety benefits.
---------------------------------------------------------------------------
    \15\ Http://www.nsc.org/learn/safety-knowledge/Pages/Driver-Assist-
Technologies.aspx.
---------------------------------------------------------------------------
    Finally, the New Car Assessment Program (NCAP) program has operated 
for nearly 40 years with a goal of testing vehicle safety systems and 
educating consumers about them. Practically, it has created a mechanism 
to allow consumers to evaluate vehicles on safety systems. NSC supports 
NCAP and believes it is an important program to improve the safety of 
the motor vehicle fleet. Standardized nomenclature and performance 
outcomes will ensure NCAP can more effectively compare vehicle safety 
systems between manufacturers, and even between a manufacturer's own 
models.
                      data protection and sharing
    The National Safety Council is very bullish on ADAS, and eventually 
fully automated vehicles, because we know when implemented safely and 
properly, they will help us realize huge gains in reducing roadway 
fatalities. But a minimum requirement, if we are to realize the life-
saving benefits, will be ensuring that we have reliable event data 
recorders that produce data in a standardized format that is 
downloadable for investigators, law enforcement, State highway safety 
offices, insurers and other relevant stakeholders. Following a crash, 
we must be able to answer simple questions like whether the vehicle 
systems or the human driver had control of the car, if and how the 
vehicle was communicating with the driver, and if all systems were 
working as designed.
    The AV policy details the importance of data collection as these 
technologies begin to be tested in real-world scenarios. Understanding 
the circumstances and causes surrounding malfunctions, including at 
lower levels of automation, will help make this technology stronger and 
safer, and ensure failures are less likely to occur as technology 
evolves. This will be especially important in assuring consumers of the 
reliability of ADAS and automated technology. As the former Chairman of 
the NTSB, I believe that minimum parameters should be set for data 
preservation, standardization of formats, ease of access for post-crash 
evaluation, and establishment of privacy protections early in the 
process. Data-sharing programs require greater maturity and a strong 
safety culture committed to continuous improvement.
    Event data recorders (EDRs) are widely used throughout the 
automotive industry in vehicles of all shapes and sizes, yielding 
valuable data in crash reconstruction efforts. Similar devices are used 
in other modes of transportation as well. Amtrak utilizes event data 
recorders that automatically transmit data from locomotive recorders to 
a control center when an event occurs. In the aviation industry, crash-
hardened ``black box'' data recorders store thousands of parameters of 
data. Much of this information is collected after normal flights and 
analyzed by the operator to learn about and improve operations, and in 
the case of an incident, the data is invaluable to investigators to 
determine what occurred. The same could be true for motor vehicles.
    Missing from the policy, however, is clarification on whether 
lower-level systems (below Level 3) should be subject to the same data 
collection guidelines. The current event data recorder standards do not 
require the majority of Levels 1 and 2 safety systems' sensors be 
tracked.\16\ This lack of information limits real world data 
availability that could guide the future development of these 
technologies to make them safer. Currently, there is no easy way for 
manufacturers, law enforcement, investigators or vehicle owners to 
understand whether deployed systems were active during a crash, whether 
they malfunctioned, or whether they helped mitigate damage or injury or 
returned the car to a safe state in event of a malfunction.
---------------------------------------------------------------------------
    \16\ 49 CFR 563.
---------------------------------------------------------------------------
    Information sharing is included in the AV policy. However, the 
policy fails to mention the public health argument for collecting data 
from electronic devices in the car in the event of a crash. Acquiring 
an understanding of what happens when systems perform as intended, fail 
as expected, or fail in unexpected ways will yield valuable information 
for manufacturers--some of whom have common suppliers. Further, in-
service data, as well as near miss and post-crash information sharing, 
can help civil engineers and planners design better and safer roadways, 
as well as help safety and health professionals design better 
interventions to discourage risky driving or affect the behaviors of 
other roadway users.
    De-identified data sharing has been in existence in the aviation 
industry for many years and proven highly successful. The Aviation 
Safety Information Analysis and Sharing (ASIAS) system allows for 
sharing of de-identified data across the aviation industry, making it 
possible for the industry to identify trends and act on them. Analysis 
of de-identified data will provide windows in to leading indicators in 
the motor vehicle industry. Leading indicators are ``proactive, 
preventative and predictive measures that monitor and provide current 
information about the effective performance, activities and processes 
of a . . . system that drive the identification and eliminate or 
control of risks.'' \17\ The NSC Campbell Institute, a leader in 
workplace safety, health and sustainability, states that tracking 
leading indicators allows world-class safety organizations to make 
further improvements to their safety records.\18\
---------------------------------------------------------------------------
    \17\ Http://www.thecampbellinstitute.org/file/
download.php?id=20130925358263a8956de938e7c00
a2bbbb8413d.
    \18\ Http://www.thecampbellinstitute.org/file/
download.php?id=2015092336b107f72d10a379134
af9249d3457ab.
---------------------------------------------------------------------------
    The AV policy also suggests that auto manufacturers use EDRs to 
gain a better understanding of how human operators engage with advanced 
technology. This knowledge will allow manufacturers to be nimbler and 
make adjustments in near real time for some systems based on what is 
actually occurring in the driver's seat, rather than making changes 
based on assumptions and estimations that must be accommodated in a 
later model year. Collecting and sharing de-identified data about near 
misses and other relevant problems could also help by aggregating 
useful information for the automotive industry, allowing them to take 
proactive steps based on leading indicators rather than waiting for a 
crash or a series of crashes to occur. Finally, this data would be 
useful to researchers and the safety community in analyzing the safety 
benefits--and potential drawbacks--of these technologies as they 
continue to mature.
    While there are competing priorities regarding protecting personal 
privacy and proprietary systems or designs, NSC believes that safety 
should be the ultimate priority, and that other concerns need to be 
accommodated to prioritize safety. NHTSA should facilitate data sharing 
as widely as possible and require that manufacturers provide 
accessible, standardized data to law enforcement, State highway safety 
offices, investigators, insurers, and/or other relevant stakeholders.
             american national standards institute standard
    As important as it is for the average consumer to know and 
understand the ADAS and automated technology, there is also work to be 
done on this issue as it relates to the technology and its rollout to 
commercial fleets. As such, NSC is taking a leading role working with 
the American Society of Safety Engineers (ASSE) and a wide array of 
experts in the automotive industry, technology sector, academia and 
fleet management, to develop an ANSI (American National Standards 
Institute) standard to address policies, procedures and management 
processes that will assist in the control of risks and exposures 
associated with the operation of autonomous fleet vehicles on public 
thoroughfares.
national highway traffic safety administration resources and oversight 
                  in the midst of changing technology
    In response to reports of repeated incidents of unintended 
acceleration in Toyota vehicles in 2009-2010, the National Research 
Council Transportation Research Board conducted an investigation into 
whether NHTSA (National Highway Traffic Safety Administration) had 
reached the correct conclusion in its own investigation, as well as to 
produce advice on how to best handle future issues involving the safe 
performance of vehicle electronics. This research resulted in a report, 
released on January 18, 2012.\19\
---------------------------------------------------------------------------
    \19\ Http://www8.nationalacademies.org/onpinews/
newsitem.aspx?RecordID=13342.
---------------------------------------------------------------------------
    The Research Council found that while NHTSA's decision to close its 
investigation was justified, it was ``troubling that NHTSA could not 
convincingly address public concerns about the safety of automotive 
electronics.'' More specifically, the Research Council stated that ``to 
respond effectively and confidently to claims of defects in the more 
complex electronic systems . . .  NHTSA will require additional 
specialized technical expertise.'' While they acknowledged it was 
unrealistic to expect NHTSA to hire and maintain these specialized 
personnel in a constantly evolving field, they made a specific 
recommendation that NHTSA establish a standing technical advisory panel 
with members representing a wide array of technical expertise central 
to the design, development, and safety assurance of automotive 
electronics systems.
    With technology advancing as quickly as it is, it is difficult to 
keep up with advances without appropriate resources. Last year, NSC 
supported the administration's NHTSA funding request of $1.1813 
billion, which included $200 million for the Autonomous Vehicle 
Development program. We encourage this Committee and Congress to fully 
fund NHTSA, including requested investments in programs that will 
support the development of ADAS and HAVs. We also recommend that NHTSA 
consider how to best take advantage of existing knowledge by 
establishing an advisory committee or similar mechanism to engage 
experts in the field of advanced technology and automotive electronic 
systems.
                              road to zero
    On October 5, NSC, NHSTA, the Federal Highway Administration 
(FHWA), and the Federal Motor Carrier Safety Administration (FMCSA) 
announced the Road to Zero (RTZ) Coalition. RTZ is a partnership 
initiative focused on dramatic reductions in roadway fatalities. Over 
80 public and private organizations attended the announcement to learn 
more about committing to a shared vision of zero fatalities on our 
roadways. The first meeting of the coalition will be on December 15.
    The purpose of the Road to Zero Coalition is to (1) encourage and 
facilitate widespread implementation of countermeasures to reduce motor 
vehicle crash deaths in the near term; (2) develop a scenario-based 
vision for zero U.S. traffic deaths in the future; and (3) provide a 
roadmap for policymakers and stakeholders to eliminate traffic deaths.
    NSC is joined on the Steering Group for the Road to Zero Coalition 
by the following organizations: Advocates for Highway and Auto Safety, 
American Association of Motor Vehicle Administrators (AAMVA), American 
Association of State Highway and Transportation Officials (AASHTO), 
Commercial Vehicle Safety Alliance (CVSA), Governors Highway Safety 
Association (GHSA), Institute of Transportation Engineers (ITE), 
Insurance Institute for Highway Safety (IIHS), Intelligent Car 
Coalition, International Association of Chiefs of Police (IACP), 
Mothers Against Drunk Driving (MADD), National Association of State 
Emergency Medical Services Officials (NASEMSO), National Association of 
City Transportation Officials (NACTO), National Association of County 
Engineers (NACE), and the Vision Zero Network.
    On behalf of the Coalition, the NSC will administer a grant program 
to support national non-profit organizations committed to roadway 
safety programs that address the overlaps and gaps between roadway 
users, vehicles and infrastructure. In addition, the Coalition will 
look at engaging others in near term solutions and countermeasures to 
reduce the death toll on our roadways. Finally, we will also provide 
critical input for the development of a future community scenario with 
zero traffic fatalities--an effort to look at the measures, programs 
and technologies will be necessary to reach zero highway fatalities in 
30 years and work back from there. NHTSA, FHWA, FMCSA, and NSC are 
sponsoring the development of the scenario-based vision for zero 
traffic deaths in the U.S. in a 30-year timeframe, and the RAND 
Corporation has been retained to produce the scenario over the next 12-
18 months. I look forward to briefing this Committee and others in 
Congress on the results of these activities and the efforts of the 
Coalition to reach zero deaths on our roadways.
                               conclusion
    Today, we have millions of drivers behind the wheel, spend millions 
of dollars on education and enforcement campaigns, and still recognize 
billions in economic loses as a result of crashes. In spite of safer 
vehicle designs and record-setting seat belt use rates across the 
Nation, operating a motor vehicle remains one of the deadliest things 
we do on a daily basis.
    NSC believes fully automated vehicles have the potential to save 
lives and prevent injuries, but--as outlined above--there are several 
key issues that policymakers must address. The AV policy begins this 
discussion, and we applaud NHTSA and DOT for issuing it.
    It will be a long time before HAVs replace our current fleet. The 
transition will likely be messy as we deal with a complex and ever-
changing Human-Machine interface. There will be an evolution of the 
existing technologies and perhaps a revolution when it comes to new and 
different technologies. We need to be prepared for unanticipated 
consequences and new failure modes.
    Although we can imagine a future with automated vehicles, it will 
be a long and winding road to get to the destination of zero fatalities 
as a result of HAVs. We cannot afford to ignore the carnage on our 
highways that is a national epidemic today. The U.S. trails other 
industrialized countries in addressing highway deaths. Efforts like 
Road to Zero will decrease fatalities today, tomorrow, and in the 
future if we embrace proven countermeasures and accelerate deployment 
of effective ADAS technologies.
    NSC appreciates this Committee's leadership on vehicle technology 
and safe roadway transportation. If safety for the traveling public is 
the ultimate goal, advanced technology provides the most promising 
opportunity to achieve that outcome, and will go a long way toward 
reaching the goal of eliminating preventable deaths in our lifetime.

    Senator Collins. Thank you very much, Ms. Hersman.
    Mr. Brubaker.
STATEMENT OF HON. PAUL BRUBAKER, PRESIDENT AND CEO, THE 
            ALLIANCE FOR TRANSPORTATION INNOVATION
    Mr. Brubaker. Chairman Collins, Ranking Member Reed, and 
members of the subcommittee, on behalf of the Alliance for 
Transportation Innovation, I would like to thank you for the 
opportunity to share our views on the role of government in 
integrating autonomous vehicles onto our Nation's roads.
    The safety and social benefits that can be achieved by 
replacing human drivers with modern sensors and computers are 
too profound not to be encouraged through government policy. 
Yet regulation has failed to keep pace with innovation, and we 
see evidence of a significant gap in understanding of these 
technologies within all levels of government. It's a gap that 
must be bridged so regulators can better understand when it's 
best to lead, follow, or move out of the way.
    We believe the Administration's recently released AV policy 
is a good first step in opening communication channels that can 
help to bridge this gap. We will formally be commenting on this 
policy by the end of the week.
    But despite this disconnect industry and innovators are 
still working hard to integrate the development and deployment 
of autonomous systems and are investing billions of dollars 
with safety top of mind. These technologies are already being 
tested on our roads. In fact, just 3 weeks ago we saw the first 
commercial delivery of a truckload of beer delivered by a self-
driving tractor trailer. Shortly, some in the auto industry 
will be prepared to offer full self-driving capability to the 
public, and government leaders must ensure that our current 
regulatory approaches do not constrain the development of these 
technologies. Lives depend on it.
    To put a fine point on the subject, human drivers are 
simply killers. Errors in human judgment while at the controls 
of motor vehicles account for more than 90 percent of the car 
crashes that last year killed over 34,000 people in the United 
States and claimed 1.3 million lives around the globe.
    Computers don't get tired. They don't text. They don't 
drink and drive, and they don't get road rage. Networks, 
sensors, maps, computing, artificial intelligence, machine 
learning, and vehicle controls work in concert to detect 
objects, analyze probabilities, consider options, make 
decisions, and take actions, all at the speed of light, and all 
with significantly greater reliability and efficiency than 
humans.
    This capability is improving rapidly, and government needs 
to keep pace or risk undermining the promise of tomorrow by 
applying the regulations of yesteryear. Government cannot 
simply allow itself to be the obstacle to saving lives.
    We hear a lot about these 34,000 fatal crashes and the fact 
that 94 percent of them are caused by human error. But the 
problem with statistics is they numb us with the fact that 
we're talking about people, individual parents, siblings, sons 
and daughters who are suddenly and cruelly taken away from us. 
Sons like Leo Vagias--and his father Teddy is right here behind 
me--and his best friend Sam Cali were killed in a very 
preventable car crash just this past June in New Jersey in a 
scenario that gets repeated too often and claims 96 lives a 
day. It needs to stop, and we have a collective obligation--
industry, government, and citizens--to accelerate the 
development, testing and deployment of life-saving self-driving 
technologies.
    But this journey to self-driving is complex, and 
integrating these technologies onto our Nation's highways will 
require unprecedented coordination and cooperation among 
industry, government, and citizens. We must win over a 
skeptical public by demonstrating that the underlying 
technologies are effective, safe and secure, and because these 
vehicles are going to operate on our public roadways, we've got 
to ensure that government encourages their safe and responsible 
deployment. Legal liability insurance issues must be addressed, 
and economic impacts and potential social disruption must be 
understood.
    Given these complexities, ATI21.org believes that only 
executive leadership with Congress on this issue will provide 
the necessary national vision, goals, and direction required 
across all sectors of our economy. That is why we recently 
published our National Strategic Framework to Accelerate Life-
Saving Self-Driving Vehicles. We designed this document to 
develop a pathway to successful integration of autonomous 
vehicles into America's transportation system.
    [The document link follows:]

    Http://www.ati21.org/wp-content/uploads/2016/10/Final-ATI-Strategy-
Document.pdf.

    One area of emphasis in that framework is data. We believe 
that data is the key to speeding the safe deployment of these 
technologies. That's why we're recommending the creation of a 
National Self-Driving Data Repository. We envision that this is 
a highly secured, trusted, opt-in data repository with a number 
of positive incentives that can be leveraged in a way to 
encourage participation, incentives like indemnification, and 
rapid regulatory approvals. Such a repository will help us 
better understand the level of safety and performance, as well 
as enable us to identify real and emerging potential issues, 
and inform regulators, industry and the public based on near 
real-time data.
    We have shared this national framework with the 
subcommittee and with the Trump transition team, and we're 
available to discuss this in detail.
    [The article link follows:]

    Https://www.washingtonpost.com/local/trafficandcommuting/the-next-
president-should-make-driverless-cars-a-white-house-priority-group-
says/2016/10/20/6c548212-9636-11e6-bc79-
af1cd3d2984b_story.html?utm_term=.3299c046b7aa.

    The convergence of technology and transportation has the 
potential to dramatically improve the safe and efficient 
movement of people and goods. Over the next few years the Trump 
Administration and Congress will have an unprecedented 
opportunity to lead a cooperative effort between industry, 
government, and the public that holds the promise of saving 
lives. We look forward to working with you to advance this 
agenda. Thank you.
    [The statement follows:]
              Prepared Statement of Hon. Paul R. Brubaker
    Chairman Collins, Ranking Member Reed, and Members of the 
Subcommittee, on behalf of the Alliance for Transportation Innovation 
(ATI21.org), I would like to thank you for the opportunity to share our 
views on integrating autonomous vehicles onto our Nation's roads.
    ATI21.org is a not-for-profit created to accelerate the deployment 
of technologies and innovation that can dramatically improve the safe 
and efficient movement of people and goods. Our members are 
associations, companies, and government and academic entities, as well 
as individuals who are dedicated to our mission.
    The need to accelerate the path to self-driving is not only 
critical to our country's economic future, but also our technological 
standing in the world. The potential safety and social benefits are 
enormous, and we are on the cusp of reliably and safely replacing human 
drivers with technology enabled mobility platforms--self-driving 
vehicles--that will transform how we move people and goods.
    Accelerating development and deployment of self-driving vehicles 
holds the promise of saving tens of thousands of lives every year, 
reducing crash-related injuries, and fundamentally transforming 
personal mobility. As soon as we achieve full self-driving, distracted 
and drunk driving will no longer claim lives; adult children will not 
have to have the conversation with aging parents about taking away 
their car keys; the poor will have access to much more convenient and 
affordable transportation; and the physically and developmentally 
disabled, including my soon to be adult son on the autism spectrum, 
will have access to transportation options. There is no doubt that 
safe, affordable, accessible, and convenient transportation is critical 
for everyone's quality of life.
    While the technologies to enable self-driving are being rapidly 
developed, the desire to get these capabilities to market are 
highlighting profound shortcomings in our national approach to 
regulation. Specifically, the regulatory process is simply not keeping 
up with the pace of innovation. While this is not unique to self-
driving, the rapid development of autonomous vehicles presents us with 
an opportunity to revisit our regulatory approach and offer reforms 
that are more suitable to the digital age. It is imperative. In this 
case the cost of delay is measured in lost members of our families, of 
pain and suffering, and the denial of economic, health and social 
opportunity for the elderly, disabled and the impoverished.
    That said, in the Obama Administration, Transportation Secretary 
Anthony Foxx and Administrator Mark Rosekind of the National Highway 
Traffic Safety Administration (NHTSA) get it. It is clear that the 
administration has a profound understanding of the critical 
technologies that have rapidly developed during the President's tenure 
and have laid the groundwork for the next administration to propel us 
into the self-driving future. The path will not be easy. There are 
considerable and complex cultural and regulatory barriers that must be 
overcome, and industry, researchers, the public, and government at all 
levels will need to engage and collaborate.
    In late September the Department of Transportation issued its much 
anticipated autonomous vehicle (AV) policy guidance in what we believe 
represented a well-intentioned and thoughtful first-step toward 
ensuring that the Department, and NHTSA specifically, is heading toward 
a more responsive regulatory approach that is more suitable for 
accelerating the safe deployment of highly autonomous vehicles on our 
Nation's roads.
    While these initial guidelines are not perfect, ATI21.org believes 
the Department of Transportation should be commended for recognizing a 
number of critical issues that must become priorities for industry and 
government to safely deploy autonomous vehicles. We also commend the 
Department for its clear willingness to engage with both the 
traditional auto industry and technology sectors. We believe such an 
open and productive dialogue with all interested parties is the first 
step to evolving toward a much more responsive and effective regulatory 
framework than the existing model.
    Specifically, there are several positive provisions included in 
this initial version of the AV policy. First, the Department's 15-point 
safety assessment covers all the major key areas that are critical to 
the safe design of highly autonomous vehicles. Second, the Department 
rightfully asserted its appropriate and exclusive role as the Nation's 
vehicle safety regulator and offered a model policy that can help guide 
States in formulating appropriate regulatory frameworks. Lastly, the 
Department was quite clear that it intended this process to be 
iterative and recognized the need to evolve and even adopt new 
regulatory models that could keep pace with the innovation cycle. We 
believe these are all excellent first steps in developing an 
appropriate regulatory framework.
    There are however two sections of the AV Policy document that gave 
us pause. Specifically, the section on the use of existing regulatory 
tools and the examples given as possible future regulatory approaches 
is no better and potentially worse than the existing tools.
    Although the policy includes language about revising and 
streamlining processes related to interpretations and waivers, we 
believe the underlying Federal Motor Vehicle Safety Standards (FMVSS), 
while arguably effective for traditional motor vehicle design approval, 
will prove to be an unworkable foundation for accelerating the design 
and deployment of highly autonomous vehicles. As was highlighted in the 
March 2016 report by the Volpe National Transportation Research Center, 
there are considerable challenges in applying these standards to SAE 
level 4 and 5 autonomous vehicles.\1,\\2\ For example, the FMVSS makes 
more than 250 individual references to human drivers, and eliminating 
traditional design features such as steering wheels and pedals, which 
can be anticipated in level 4 and 5 vehicles, would violate roughly a 
third of the standards and half of the Series 100 crash avoidance 
requirements.
---------------------------------------------------------------------------
    \1\ John A. Volpe National Transportation Systems Center, Review of 
Federal Motor Vehicle Safety Standards (FMVSS) for Automated Vehicles, 
Preliminary Report-March 2016, prepared for the Intelligent 
Transportation Systems Joint Program Office, NHTSA.
    \2\ Levels of driving automation are defined in the SAE 
International Standard J3016. It identifies six levels of driving 
automation from ``no automation'' (0) to ``full automation'' (5), with 
level 4 being ``high'' and Level 5 being ``full.''
---------------------------------------------------------------------------
    While we commend the Department for beginning what we believe is a 
long overdue conversation on the need to create a much more responsive 
and timely regulatory approach, we believe the examples offered such as 
pre-approval of designs based on the FAA model or the FDA medical 
device approach are neither particularly efficient nor applicable or 
fitting.
    Data is the key to reforming the regulatory process in a manner 
that will allow the creation of a regulatory approach that is rapid, 
efficient, and effective. Specifically, a central repository for 
collecting, storing, and analyzing all operational and testing data 
from across the industry is necessary to create a responsive regulatory 
environment. Neither the NHTSA nor any existing industry group is 
positioned to perform this task. Consequently, we are recommending the 
establishment of an independent, federally chartered organization to 
securely and confidentially collect and analyze all operational and 
test data from across industry that will include simulation data. By 
collecting real-time data and applying modern analytical methods, we 
are confident that, if properly established, this organization can 
rapidly inform industry and NHTSA of real and potential issues. We 
recommend that this effort be funded from existing dollars. We would be 
happy to consult with the Subcommittee on the specific details of this 
recommendation.
    The second area we would like to highlight in our testimony this 
morning is our call for a National Strategic Framework to Advance Life-
Saving Self-Driving Vehicles. We created this document calling for 
presidential level leadership on self-driving.
    Accelerating the path to self-driving is an enormously complex 
undertaking that will go beyond the responsibility of the U.S. 
Department of Transportation. While there are major roles and policy 
levers that both the Federal Government as a whole and U.S. Department 
of Transportation can take to accelerate deployment and ensure that 
only safe vehicles make it to market, it is critical that all levels of 
government work together, that industry and the research community 
continues to drive innovation and has a path to market, and perhaps 
most importantly that citizens are informed, engaged and welcoming of 
what will prove to be a major cultural shift.
    Not unlike past transitions to transportation-related innovation, 
success will depend on high levels of cooperation and engagement across 
government, industry, and the public. This was true of steamships, 
railroads, motor vehicles and aviation. The disruptive transition to 
self-driving will require similar coordination, cooperation, and 
support.
    As is true with all disruptive innovation throughout history, we 
can expect to experience both positive and negative effects as we begin 
integrating autonomous vehicles onto the Nation's roads. It is critical 
that we thoughtfully consider the obvious consequences, both good and 
bad, that will undoubtedly arise from our transition from what we refer 
to as the ``crash economy'' to a new mobility paradigm.
    As I mentioned earlier, the major reason for making this transition 
is to save lives and reduce injuries. Last year, over 35,000 Americans 
died in car crashes. This year that number is expected to climb and may 
exceed 40,000. Millions more are injured including many with life-
changing debilitating injuries. We know that crashes cost the U.S. 
economy almost $1 trillion annually. Let us be clear, we would not 
tolerate such cost and carnage in any other mode of transportation, and 
now, the tools are arriving to make these tragedies preventable.
    Autonomous features and ultimately self-driving vehicles hold 
promise to dramatically reduce fatalities and injuries as NHTSA 
estimates that more than 94 percent of these crashes are the result of 
human error. We simply should not allow more than 90 of our fellow 
citizens to die every day when we can create the conditions to prevent 
it. The sooner we fully integrate autonomous vehicles onto our 
highways, the sooner we will realize a dramatic reduction in the number 
of preventable fatalities and injuries.
    Getting this transition right will not be easy. Moving from the 
crash economy to a dramatically safer, accessible, affordable, and 
convenient mobility paradigm is a complex undertaking requiring 
unprecedented cooperation and coordination among industry, 
associations, and research and government institutions at all levels.
    We believe such an effort will require presidential leadership and 
that the incoming administration and Congress should work in concert to 
create the conditions necessary to accelerate the development, testing, 
and deployment of these capabilities as well as proactively address 
some of the anticipated consequences of transition.
    At ATI21.org, we announced the publication of our initial framework 
for accelerating the deployment of self-driving vehicles last month. 
The framework is not a prescriptive list of recommended actions but 
rather an outline of key challenges areas that must be addressed in 
order to accelerate the integration of autonomous vehicles on our 
Nation's highways.
    Between now and Inauguration Day, we will be soliciting reaction to 
the challenge areas and hosting a series of expert panels to explore 
and produce recommendations on each challenge area. We intend to update 
the framework based on panel input and host a final review and input 
session for the entire document on January 4th with the Consumer 
Technology Association in advance of the Consumer Electronics Show.
    In short, ATI21.org is calling for a National Strategy to Advance 
Self-Driving (NSAS) and urging the next president to issue an executive 
order that would describe the challenges and create a Program 
Management Office (PMO) within the Office of Science and Technology 
Policy (OSTP). We recommend funding the activity as a government-wide 
technology initiative through existing Office of Management and Budget 
(OMB) authority under a provision in the Clinger-Cohen Act. The PMO 
would operate under a 4-year charter to collaborate with relevant 
stakeholders, assemble experts, develop outcome-focused and actionable 
strategies, and identify funding streams to address each of the 
challenge areas.
    We have identified the following challenge areas:
  --Earning public trust
  --Increasing confidence in self-driving technology
  --Ensuring robust cybersecurity
  --Developing standards and regulations that encourage self-driving
  --Creating the legal, liability, and insurance framework for 
        accelerating the deployment of self-driving vehicles
  --Adopting reasonable data and privacy policies
  --Accelerating the transition to a fully self-driving fleet
  --Understanding and planning for economic disruption and labor 
        transition
    As we say in the framework, accelerating the path to self-driving 
will not be easy. The incoming president by leading us though this 
ambitious effort early in the new term can ensure dramatic progress 
toward creating a new mobility paradigm that will create safe, 
convenient, resilient, and accessible transportation options to all 
Americans regardless of their ability, age, or economic condition. 
ATI21.org believes this is a transportation legacy that we can be proud 
to leave to future generations.
    In the coming months, we look forward to working with the 
Subcommittee and Congress to work on creating the conditions necessary 
to speed integration of autonomous vehicles on the Nation's highways.
    Thank you. I look forward to answering your questions.

    Senator Collins. Thank you.
    Dr. Kalra.
STATEMENT OF DR. NIDHI KALRA, CO-DIRECTOR, RAND CENTER 
            FOR DECISION MAKING UNDER UNCERTAINTY
    Dr. Kalra. Chairman Collins, Ranking Member Reed, members 
of the subcommittee, thank you for the opportunity to testify 
today on the future of autonomous vehicles.
    My name is Nidhi Kalra, and I'm an Information Scientist at 
the RAND Corporation. RAND is a non-profit, non-partisan 
research institution committed to improving public policy 
through objective research and analysis. I have a Ph.D. in 
robotics and have been studying autonomous vehicles for 10 
years. And in the interest of full disclosure, my spouse is the 
co-founder of an autonomous vehicle start-up in Silicon Valley, 
though his work has no bearing on my testimony, or vice-versa.
    Now, there are three issues I'd like to discuss today, the 
safety of autonomous vehicles, their benefits for mobility, and 
the urgency of addressing distortions in the transportation 
market so we can harness their benefits and mitigate their 
drawbacks.
    So first let's talk about safety. Will autonomous vehicles 
be safe before they're allowed on the road for consumer use? We 
may not know. Real-world driving is currently the only method 
of demonstrating their safety. But suppose a fleet of 
autonomous vehicles has a 20 percent lower fatality rate than 
human drivers. They would have to be driven 5 billion miles to 
prove it, and a fleet of test vehicles, 100 test vehicles would 
have to be driven 225 years to cover this distance. It's 
impossible if we ever want them on the road for consumer use.
    But now let's consider two things. First, Americans as a 
whole drive more than this every day. We drive 8 billion miles 
every day. So once autonomous vehicles are widely deployed for 
consumer use, we may know very quickly how safe they are. And 
consider that autonomous vehicles will improve over time. So 
when a human driver makes a mistake, only that person, at best, 
is able to learn from the experience, but that's not with 
autonomous vehicles. When one vehicle makes a mistake or has an 
experience on the road, that information can be used to improve 
the entire fleet.
    So experience may be one of the most important tools for 
both demonstrating and improving autonomous vehicle safety. So 
I think an important question is how do we enable autonomous 
vehicles to get experience while mitigating the safety risks 
they pose? And I suggest two things--strategic pilot studies 
and data sharing--that can help.
    Pilot studies could start with real-world testing in lower-
risk conditions like operating vehicles in well-maintained 
areas and at low speeds, and then could be expanded as safety 
is demonstrated.
    As for data sharing, developers are already using the 
experiences of one vehicle to improve their fleet, but data 
sharing across the industry could mean that the experiences of 
every vehicle can improve the entire industry.
    Second, let's talk about mobility. Autonomous vehicles 
could improve mobility for millions of Americans who are 
elderly, young, have disabilities, or live in poverty. But 
policies may be needed to make them affordable, available, and 
accessible. Policymakers can incentivize developers to bring 
these technologies to those markets sooner than they might 
otherwise, or to integrate them with transit and para-transit. 
Policymakers may need to work with developers to help make sure 
they're accessible, meaning that they comply with ADA 
guidelines and use different forms of payment, for example.
    And while the cost of shared autonomous vehicles is 
expected to be low, policymakers could extend transit and para-
transit reduced fares to these other technologies to make them 
all the more affordable for these vulnerable populations.
    Third, let's talk about market distortions. Autonomous 
vehicles could also significantly affect traffic congestion, 
energy pollution and land use, maybe for the better, but maybe 
for the worse. So to harness their benefits and mitigate their 
drawbacks, policymakers should address the existing distortions 
in the transportation market that lead to undesirable outcomes 
and subsidize desirable outcomes.
    Now, there are many policy options to address distortions, 
like strengthening the auto insurance market to encourage 
safety, implementing congestion pricing to reduce congestion, 
and offering rebates for fuel-efficient vehicles to reduce 
pollution.
    Now, I can't today give each policy the discussion it 
warrants, but now is the time to address these distortions, 
because autonomous vehicles could improve our transportation 
system tremendously if the right market signals are in place. 
And there is currently a window of opportunity to send those 
new market signals because consumer expectations about 
autonomous vehicle performance and cost aren't yet set.
    So, let me conclude. In the 1990s, we couldn't forecast the 
impact that the Internet has now had. Similarly, today we can't 
forecast the impact that autonomous vehicles will have on our 
future, but we can shape that future, and I would like to leave 
you with two recommendations.
    First, as I noted, widespread experience may be the key to 
figuring out both how safe autonomous vehicles are and how they 
get better. So it's important to get them that experience as 
safely as possible.
    And second, correcting market distortions will be critical 
to encouraging better outcomes for our transportation system 
and for our society.
    Chairman Collins, Ranking Member Reed, and members of the 
subcommittee, thank you for allowing me to appear before you 
today, and I look forward to your questions.
    [The statement follows:]
                 Prepared Statement of Dr. Nidhi Kalra
    Chairman Collins, Ranking Member Reed, and distinguished members of 
the subcommittee, my name is Nidhi Kalra of the RAND Corporation.\1\ 
Thank you for the opportunity to testify on important emerging 
opportunities and risks related to autonomous vehicles. Autonomous 
vehicles have the potential to change transportation profoundly, in the 
United States and around the world. There is much opportunity for 
improvement, but also potential for added risks and harms. How 
autonomous vehicles ultimately shape our future is not foretold; it 
depends on many technology and policy choices we make today.
---------------------------------------------------------------------------
    \1\ The RAND Corporation is a research organization that develops 
solutions to public policy challenges to help make communities 
throughout the world safer and more secure, healthier and more 
prosperous. RAND is nonprofit, nonpartisan, and committed to the public 
interest.
---------------------------------------------------------------------------
    Today, I would like to discuss three important questions about the 
future of autonomous vehicles and how policies can shape it. First, 
will autonomous vehicles be safe before they are allowed on the road 
for consumer use? Second, how can autonomous vehicles improve mobility 
for Americans who currently may have limited mobility? Third, what 
mechanisms can help realize the benefits and mitigate the drawbacks of 
autonomous vehicles? I will focus most of my remarks on fully 
autonomous vehicles--those that can operate without a human driver some 
or all of the time--rather than on vehicles that require continuous 
human oversight.
 will autonomous vehicles be safe before they are allowed on the road 
                           for consumer use?
    In the United States, roughly 32,000 people are killed and more 
than 2 million are injured in motor vehicle crashes every year.\2\ 
Although safety has generally improved over the past several decades, 
2015 saw 35,000 road fatalities, the largest increase in fatalities in 
this country in more than 50 years. This occurred partly because 
Americans drove more and partly because they drove worse.
---------------------------------------------------------------------------
    \2\ Bureau of Transportation Statistics, Motor Vehicle Safety Data, 
Table 2-17, Washington, D.C.: Research and Innovative Technology 
Administration, U.S. Department of Transportation, 2015.
---------------------------------------------------------------------------
    U.S. motor vehicle crashes as a whole can pose enormous economic 
and social costs--more than $800 billion in a single year.\3\ And more 
than 90 percent of crashes are caused by human errors,\4\ such as 
driving too fast and misjudging other drivers' behaviors, as well as 
alcohol impairment, distraction, and fatigue.
---------------------------------------------------------------------------
    \3\ Lawrence Blincoe, Ted R. Miller, Eduard Zaloshnja, and Bruce A. 
Lawrence, The Economic and Societal Impact of Motor Vehicle Crashes 
2010 (Revised), Washington, D.C.: National Highway Traffic Safety 
Administration, DOT HS 812 013, 2014, revised May 2015.
    \4\ National Highway Traffic Safety Administration, Traffic Safety 
Facts, A Brief Statistical Summary: Critical Reasons for Crashes 
Investigated in the National Motor Vehicle Crash Causation Survey, 
Washington, D.C.: National Center for Statistics and Analysis, U.S. 
Department of Transportation, DOT HS 812 115, February 2015.
---------------------------------------------------------------------------
Autonomous Vehicles Present Benefits and Risks to Safety
    Autonomous vehicles have the potential to significantly mitigate 
this public safety crisis by eliminating many of the mistakes that 
human drivers routinely make.\5\ To begin with, autonomous vehicles are 
never drunk, distracted, or tired; these factors are involved in 41 
percent, 10 percent, and 2.5 percent, respectively, of all fatal 
crashes.\6\ Autonomous vehicles could perform better than human drivers 
because of better perception (e.g., no blind spots), better 
decisionmaking (e.g., more-accurate planning of complex driving 
maneuvers), and better execution (e.g., faster and more-precise control 
of steering, brakes, and acceleration).
---------------------------------------------------------------------------
    \5\ James M. Anderson, Nidhi Kalra, Karlyn D. Stanley, Paul 
Sorensen, Constantine Samaras, and Oluwatobi A. Oluwatola, Autonomous 
Vehicle Technology: A Guide for Policymakers, Santa Monica, Calif.: 
RAND Corporation, RR-433-2-RC, 2014; and Daniel J. Fagnant and Kara 
Kockelman, ``Preparing a Nation for Autonomous Vehicles: Opportunities, 
Barriers and Policy Recommendations,'' Transportation Research Part A: 
Policy and Practice, Vol. 77, July 2015, pp. 167-181.
    \6\ National Highway Traffic Safety Administration, Traffic Safety 
Facts: Crash Stats, Washington, D.C.: National Center for Statistics 
and Analysis, DOT HS 811 449, March 2011; Bureau of Transportation 
Statistics, Occupant and Non-Motorist Fatalities in Crashes by Number 
of Vehicles and Alcohol Involvement (Updated July 2014), Table 2-20, 
Washington, D.C.: U.S. Department of Transportation, 2014; and U.S. 
Department of Transportation, Fact Sheet: Enhanced Mobility of Seniors 
and Individuals with Disabilities Section 5310, Washington D.C., 2015. 
This does not mean that 53.5 percent of all fatal crashes are caused by 
these factors because a crash may involve, but not be strictly caused 
by, one of these factors, and because more than one of these factors 
may be involved in a single crash.
---------------------------------------------------------------------------
    However, autonomous vehicles might not eliminate all crashes. For 
instance, inclement weather and complex driving environments pose 
challenges for autonomous vehicles, as well as for human drivers, and 
autonomous vehicles might perform worse than human drivers in some 
cases.\7\ There is also the potential for autonomous vehicles to pose 
new and serious crash risks--for example, crashes resulting from cyber 
attacks.\8\ Clearly, autonomous vehicles present both enormous 
potential benefits and potential risks to transportation safety.
---------------------------------------------------------------------------
    \7\ Lee Gomes, Hidden Obstacles for Google's Self-Driving Cars: 
Impressive Progress Hides Major Limitations of Google's Quest for 
Automated Driving, Massachusetts Institute of Technology, August 28, 
2014.
    \8\ Anderson et al., 2014.
---------------------------------------------------------------------------
    When the National Highway Traffic Safety Administration released 
much-anticipated guidelines intended to outline best practices for 
autonomous vehicle safety, many looked to that guidance to answer the 
key question: Will autonomous vehicles be safe? I believe the answer is 
``maybe.'' Answering the question requires considering two issues. 
First, how should autonomous vehicle safety be measured, and second, 
what threshold of safety should be required before autonomous vehicles 
are made publicly available? In essence, what test do autonomous 
vehicles have to take and what constitutes a passing grade? Both are 
genuinely open questions, so it is understandable that Federal 
guidelines have not yet answered them.
There Is No Proven, Feasible Way to Determine Autonomous Vehicle Safety
    There are no road tests that could demonstrate how safe an 
autonomous vehicle is--there are too many conditions and scenarios to 
test them all. (A road test that a person takes at the Department of 
Motor Vehicles also does not prove that he or she will be a good 
driver; rather, the road test determines whether the person can perform 
a specific set of driving skills under regular traffic situations. 
While this type of evidence is viewed as adequate for licensing human 
drivers, it is not generally viewed as adequate for robot drivers.)
    A logical alternative is to test-drive autonomous vehicles 
extensively in real traffic and observe their performance before making 
them commercially available. Although this is a helpful first step, it 
is not sufficient to prove safety. Even though the number of crashes, 
injuries, and fatalities from human drivers is high, the rate of these 
failures is low in comparison with the number of miles that people 
drive. Americans drive nearly 3 trillion miles every year.\9\ The 
35,092 fatalities and 2.44 million injuries in 2015 correspond to a 
failure rate of 1.12 fatalities and 78 injuries per 100 million miles 
driven. Given that current traffic fatalities and injuries are rare 
events compared with vehicle miles traveled, fully autonomous vehicles 
would have to be driven hundreds of millions of miles and sometimes 
hundreds of billions of miles to demonstrate their reliability in terms 
of fatalities and injuries. Under even aggressive testing assumptions, 
existing fleets would take tens and sometimes hundreds of years to 
drive these miles--an impossible proposition if the aim is to 
demonstrate their performance prior to releasing them on the roads for 
consumer use.\10\ And, in the meantime, human drivers would continue to 
cause avoidable crashes and enormous harms to people and property.
---------------------------------------------------------------------------
    \9\ Bureau of Transportation Statistics, 2015.
    \10\ Nidhi Kalra and Susan M. Paddock, Driving to Safety: How Many 
Miles of Driving Would It Take to Demonstrate Autonomous Vehicle 
Reliability? Santa Monica, Calif.: RAND Corporation, RR-1478-RC, 2016.
---------------------------------------------------------------------------
    Developers of this technology and third-party testers need to 
develop innovative methods of demonstrating safety and reliability. 
These methods may include but are not limited to accelerated 
testing,\11\ virtual testing and simulations,\12\ mathematical modeling 
and analysis,\13\ scenario and behavior testing,\14\ and pilot 
studies,\15\ as well as extensive focused testing of hardware and 
software systems. This is a rapidly growing area of research and 
development. There are promising ideas but no demonstrated and accepted 
methods of proving safety. In sum, no one yet knows how autonomous 
vehicles should be tested. It is therefore reasonable that the current 
Federal guidelines have not specified a test either.
---------------------------------------------------------------------------
    \11\ Wayne B. Nelson, Accelerated Testing: Statistical Models, Test 
Plans, and Data Analysis, Hoboken, N.J.: John Wiley & Sons, 2009.
    \12\ Suren Chen and Feng Chen, ``Simulation-Based Assessment of 
Vehicle Safety Behavior under Hazardous Driving Conditions,'' Journal 
of Transportation Engineering, Vol. 136, No. 4, 2010, pp. 304-315; 
Siddartha Khastgir, Stewart A. Birrell, Gunwant Dhadyalla, and Paul A. 
Jennings, ``Development of a Drive-In Driver-in-the-Loop Fully 
Immersive Driving Simulator for Virtual Validation of Automotive 
Systems,'' paper presented at IEEE 81st Vehicular Technology 
Conference, Glasgow, Scotland, May 11-14, 2015; and Stephanie Olivares, 
Nikolaus Rebernik, Arno Eichberger, and Ernst Stadlober, ``Virtual 
Stochastic Testing of Advanced Driver Assistance Systems,'' in Tim 
Schulze, Beate Muller, and Gereon Meyer, eds., Advanced Microsystems 
for Automotive Applications 2015: Smart Systems for Green and Automated 
Driving, New York: Springer, 2015.
    \13\ Khashayar Hojjati-Emami, Balbir Dhillon, and Kouroush Jenab, 
``Reliability Prediction for the Vehicles Equipped with Advanced Driver 
Assistance Systems (ADAS) and Passive Safety Systems (PSS),'' 
International Journal of Industrial Engineering Computations, Vol. 3, 
No. 5, 2012, pp. 731-1742; and R. Kianfar, P. Falcone, and J. 
Fredriksson, ``Safety Verification of Automated Driving Systems,'' IEEE 
Intelligent Transportation Systems Magazine, Vol. 5, No. 4, Winter 
2013, pp. 73-186.
    \14\ California Department of Motor Vehicles, Express Terms Title 
13, Division 1, Chapter 1 Article 3.7--Autonomous Vehicles, 2015; and 
Michael Sivak, and Brandon Schoettle, Should We Require Licensing Tests 
and Graduated Licensing for Self-Driving Vehicles? University of 
Michigan: Transportation Research Institute, Technical Report UMTRI-
2015-33, 2015.
    \15\ ANWB, Experiments on Autonomous and Automated Driving: An 
Overview 2015, 2015.
---------------------------------------------------------------------------
There Is No Consensus on How Safe Autonomous Vehicles Should Be
    The second issue of how safe autonomous vehicles should be is worth 
considering, even if their degree of safety cannot yet be fully proven. 
Some will insist that anything short of totally eliminating risk is a 
safety compromise. They might feel that it is acceptable if humans make 
mistakes, but not if machines do. But, again, waiting for autonomous 
vehicles to operate perfectly misses opportunities to save lives 
because it leaves far-from-perfect human drivers behind the wheel.
    It seems sensible that autonomous vehicles should be allowed on 
America's roads when they are judged safer than the average human 
driver, allowing more lives to be saved and sooner while still ensuring 
that autonomous vehicles do not create new risks. An argument can be 
made that autonomous vehicles could be allowed even when they are not 
as safe as average human drivers if developers can use early deployment 
as a way to rapidly improve the vehicles. The vehicles could become at 
least as good as the average human sooner than they would otherwise, 
and thus save more lives overall.
    The lack of consensus on this point is not a failure of sound 
thinking. It is not a failure at all, but rather a genuine expression 
of Americans' different values and beliefs when it comes to humans 
versus machines. It is therefore reasonable that the Federal guidelines 
also do not draw a line in the sand.
    While these are difficult decisions, our differences in values and 
beliefs can be informed by thinking not only about safety today but 
also about the arc of safety in the coming decades. Our discourse on 
the question of how safe the vehicles need to be focuses on the safety 
of autonomous vehicles at the time that they are first introduced for 
consumer use. But this thinking should be expanded to consider the 
evolution of autonomous vehicle safety over time, not just at the start 
of vehicle deployment. When a human driver makes a mistake on the road, 
typically only that individual can learn from that experience to 
improve his or her driving habits. The other drivers on the road are 
largely unaffected. This is not the case with autonomous vehicles, 
which can use experience and learning to improve performance, not just 
of the individual vehicle but of the entire fleet. This is because, 
when an algorithm or software is updated and improved for one vehicle, 
it can be updated for all vehicles. For this reason, experience may be 
one of the most important tools for improving autonomous vehicle safety 
and, by extension, transportation safety.
Policymakers Can Promote Autonomous Vehicle Safety
    This raises an important question: How do we enable autonomous 
vehicles to improve as quickly as possible while lowering the risks 
they pose? There are several tactics policymakers could consider to 
accelerate autonomous vehicles' improvement.
    A first step is to conduct real-world but lower-risk pilot studies 
of autonomous vehicles. Risk can be lowered first by operating 
autonomous vehicles in conditions in which crashes are less likely. 
This can include limiting autonomous vehicle pilots to areas with less-
complex terrain, to routes that are well maintained and easier to 
navigate, to nondangerous weather conditions, or to some combination of 
these controls. It can also include educating communities about safe 
behavior in and around autonomous vehicles. Furthermore, risk can be 
lowered by designing and operating vehicles so that when crashes occur, 
the consequences of the crash to passengers and bystanders are fewer. 
This could be accomplished by limiting vehicle speed, ensuring that all 
pilot-study passengers wear seatbelts, and so forth. These 
strategically limited pilot studies can then be expanded as safe 
operation of autonomous vehicles is demonstrated.
    A second consideration is the role of sharing driving data across 
the industry and with policymakers. Autonomous vehicle developers 
already use the experiences of a single vehicle to improve the safety 
of their individual fleets. This improvement could occur even faster if 
the experiences of each vehicle in each fleet could be used across all 
developers to improve the entire industry. There are certainly 
nontrivial concerns about protecting trade secrets, but these concerns 
could be addressed and must be balanced with the societal need for safe 
autonomous vehicle technology.
    In sum, it may not be possible to know what the safety risk of 
autonomous vehicles is, and Americans may not agree on what it should 
be. All the same, there are ways of lowering that risk that deserve 
careful consideration.
    how can autonomous vehicles improve mobility for americans who 
                  currently may have limited mobility?
    For almost all Americans, the ability to get around is essential 
for living a rich, productive, and healthy life: being able to get to a 
place of work, to visit friends and family, to access healthcare and 
other services, to participate in civic activities, and to be connected 
to the external world in all other ways. Even with the increasing 
ability to interact and transact online, the importance of mobility in 
today's world remains vital. Despite its importance, many Americans 
have limited, and sometimes very limited, mobility as a result of 
advanced age, disabilities, or lack of means. Whatever the reason, 
limited mobility has significant negative consequences. Autonomous 
vehicles could help.
Autonomous Vehicles Could Help Many Older Americans Who Face Limited or 
        Declining Mobility
    The experiences of older Americans, especially those over 75, are 
emblematic of the challenges of limited mobility. The number of 
Americans 65 and older will increase from 48 million in 2015 (15 
percent of today's population) to 74 million in 2030 (23 percent of the 
population). The number of Americans 75 and older will increase from 20 
million in 2014 (6 percent of today's population) to 35 million in 2030 
(10 percent of the population.) \16\ Older Americans are living longer 
and working longer than ever before. The labor force participation of 
those over 65 is expected to be 21.7 percent in 2024, up from 12.4 
percent in 1994.\17\
---------------------------------------------------------------------------
    \16\ U.S. Census Bureau, Projections of the Population by Sex and 
Age for the United States: 2015 to 2060 (NP2014-T9), spreadsheet, 
December 2014. As of November 8, 2016: http://www.census.gov/
population/projections/files/summary/NP2014-T9.xls.
    \17\ Bureau of Labor Statistics, ``Civilian Labor Force 
Participation Rate by Age, Gender, Race, and Ethnicity,'' web page, 
December 2015. As of November 8, 2016: http://www.bls.gov/emp/
ep_table_303.htm.
---------------------------------------------------------------------------
    Driving is important to their quality of life. Of adults over 65, 
80 percent live in car-dependent areas and 90 percent say they intend 
to age in place.\18\ Eighty-five percent of adults aged 65 to 84 hold 
licenses, and almost 60 percent of adults over 85 hold licenses.\19\
---------------------------------------------------------------------------
    \18\ David Dudley, ``The Driverless Car Is (Almost) Here,'' AARP 
The Magazine, December 2014/January 2015. As of November 8, 2016: 
http://www.aarp.org/home-family/personal-technology/info-2014/google-
self-driving-car.html.
    \19\ Policy and Governmental Affairs Office of Highway Police 
Information, ``Distribution of Licensed Drivers--2014 By Sex and 
Percentage in Each Age Group and Relation to Population,'' web page, 
U.S. Department of Transportation, September 2014. As of November 8, 
2016: https://www.fhwa.dot.gov/policyinformation/statistics/2014/
dl20.cfm.
---------------------------------------------------------------------------
    Driving is risky for many older Americans. A recent study found 
that, when compared with drivers aged 55 to 64, drivers over 75 were 
more than 2.5 times as likely to die in a car crash, and drivers over 
85 were almost four times as likely.\20\ This is due both to increased 
likelihood of getting into crashes and greater vulnerability to 
injuries.
---------------------------------------------------------------------------
    \20\ AAA Foundation for Traffic Safety, ``Drivers Over 65 Almost 
Twice as Likely as Middle-Aged Drivers to Die in Car Crashes, According 
to AAA Foundation Study,'' February 18, 2004. As of November 8, 2016: 
https://www.aaafoundation.org/sites/default/files/DriversOver65.pdf.
---------------------------------------------------------------------------
    But giving up driving has risks as well. Driving cessation almost 
doubles the risk of increased depressive symptoms and is correlated 
with (though not strictly a cause of) cognitive, social, and physical 
declines and higher rates of entry into long-term care.\21\
---------------------------------------------------------------------------
    \21\ Stanford Chihuri, Thelma J. Mielenz, Charles J. DiMaggio, 
Marian E. Betz, Carolyn DiGuiseppi, Vanya C. Jones, and Guohua Li, 
``Driving Cessation and Health Outcomes in Older Adults,'' American 
Geriatric Society, Vol. 64, 2016, pp. 332-341.
---------------------------------------------------------------------------
    Geography can further affect mobility. Approximately 18 percent of 
the rural population is 65 years or older, compared with 13.5 percent 
in non-rural areas.\22\ Compared with their counterparts in urban 
areas, older adults in rural areas must take longer trips for 
healthcare and other services and have fewer alternatives to 
driving.\23\
---------------------------------------------------------------------------
    \22\ U.S. Census Bureau, ``Percent of the Total Population Who Are 
65 Years and Over--United States--Urban/Rural and Inside/Outside 
Metropolitan and Micropolitan Area,'' American FactFinder, 2014. As of 
November 8, 2016: http://factfinder.census.gov/bkmk/table/1.0/en/ACS/
14_5YR/GCT0103.US26
    \23\ J. E. Burkhardt, A. T. McGavock, C. A. Nelson, and C. G. B. 
Mitchel, Improving Public Transit Options for Older Persons Transit 
Cooperative Research Program, Washington D.C.: Transport Research 
Board, 2002.
---------------------------------------------------------------------------
    Autonomous vehicles offer a promising solution. Fully automated 
vehicles that do not require human intervention would allow many older 
adults to travel by car, without having to drive. It could increase 
their mobility, with all of the associated social and economic 
benefits, while mitigating much of the safety risk. This, in turn, may 
allow more people to age in place, remaining in their homes for much 
longer than they might otherwise be able to.
Autonomous Vehicles Could Improve Mobility for Many Others
    Older adults are just one group of Americans that could benefit 
from increased mobility from autonomous vehicles. Many people with 
disabilities, young people, and people living in poverty face mobility 
challenges that could be alleviated by autonomous vehicles.
    In 2010, 56.7 million individuals (18.7 percent of the population) 
identified as having a disability.\24\ Only 65 percent of individuals 
with disabilities drive, compared with 88 percent of individuals 
without disabilities.\25\ In spite of the Americans with Disabilities 
Act, which mandates that transit authorities operating a fixed route 
system provide paratransit or a comparable service to individuals with 
a disability,\26\ individuals with disabilities often have limited 
mobility because of a lack of availability or access to services. One 
survey showed that 12 percent of persons with disabilities reported 
having a harder time obtaining the transportation they need to be 
independent, compared with 3 percent of others, the top two reasons 
being no or limited public transportation (33 percent) and not having a 
car (26 percent).\27\
---------------------------------------------------------------------------
    \24\ Matthew W. Brault, Americans with Disabilities: 2010, U.S. 
Census Bureau, July 2012.
    \25\ U.S. Department of Transportation, Freedom to Travel, 
Washington D.C.: Bureau of Transportation Statistics, 2003.
    \26\ U.S. Department of Justice, Information and Technical 
Assistance on the Americans with Disabilities Act, 2016.
    \27\ U.S. Department of Transportation, 2003.
---------------------------------------------------------------------------
    There are also 25 million young Americans between the ages of 12 
and 17 who have mobility needs but are not yet old enough to drive or 
are novice drivers.\28\ Getting to school and academic enrichment 
opportunities, social and extracurricular activities, and even first 
jobs can be a challenge. Many depend on buses (principally to school) 
or their parents--or forgo travel. For many working parents, there is a 
trade-off between supporting their own and their children's mobility 
needs.
---------------------------------------------------------------------------
    \28\ Federal Interagency Forum on Child and Family Statistics, 
``POP1 Child Population: Number of Children (in millions) Ages 0-17 in 
the United States by Age, 1950-2015 and Projected 2016-2050,'' 2016. As 
of November 8, 2016: http://www.childstats.gov/americaschildren/tables/
pop1.asp.
---------------------------------------------------------------------------
    Americans living in poverty also face mobility challenges. About 
43.1 million people (13.3 percent of the population) live in 
poverty.\29\ This includes older adults and many individuals with 
disabilities. In 2014, 10 percent of older adults and 28.5 percent of 
individuals with a disability had a yearly income below the poverty 
line.\30\
---------------------------------------------------------------------------
    \29\ Bernadette D. Proctor, Jessica L. Semega, and Melissa A. 
Kollar, Income and Poverty in the United States: 2015, U.S. Census 
Bureau, September 2016. As of November 8, 2016: http://www.census.gov/
library/publications/2016/demo/p60-256.html.
    \30\ C. DeNavas-Walt and B. D. Proctor, Income and Poverty in the 
United States: 2014, Washington D.C.: U.S. Census Bureau, 2015.
---------------------------------------------------------------------------
    About 24 percent of households below the poverty line do not own a 
vehicle, compared with just 2 percent of households with incomes over 
$100,000. Individuals living in poverty are about three times as likely 
to take transit and 1.5 times more likely to walk.\31\ While these are 
desirable ways to get around for environmental and physical health 
reasons, they can take much more time and limit travel to destinations 
that are accessible by these modes. This is important because research 
shows that access to efficient transportation is important for escaping 
poverty (via access to education, training, and work) and achieving 
upward economic mobility.\32\ In sum, there are millions of Americans 
with limited mobility, and autonomous vehicles could help them.
---------------------------------------------------------------------------
    \31\ Federal Highway Administration, ``Mobility Challenges for 
Households in Poverty: 2009 National Household Travel Survey,'' FHWA 
NHTS Brief, 2014.
    \32\ Raj Chetty and Nathaniel Hendren, ``The Impacts of 
Neighborhoods on Intergenerational Mobility: Childhood Exposure Effects 
and County-Level Estimates,'' Harvard University, 2015.
---------------------------------------------------------------------------
Affordability, Availability, and Accessibility Are Keys to Realizing 
        These Benefits
    Simply bringing autonomous vehicles to market might not fully solve 
the mobility challenges Americans face. Autonomous vehicles, like other 
transportation options, must also be affordable, available, and 
accessible. Fortunately, autonomous vehicles may have advantages over 
conventional transit, taxi, or vehicle-sharing services.
    For many older adults, individuals with disabilities, and other 
people living below the poverty line, the costs of a personally owned 
vehicle are prohibitive. The costs of a privately owned autonomous 
vehicle are expected to be much higher, particularly initially. Shared 
autonomous vehicles will be the key to affordability. Shared vehicles 
are vehicles that are not personally owned but instead are available 
for many people to use, either on demand or through a reservation 
system, and are typically pay-per-use. Some estimates suggest that the 
per-mile cost of using a shared autonomous vehicle service could be 30 
percent to 90 percent less than owning a conventional vehicle or using 
conventional taxis, depending on the nature of the service.\33\ In 
other words, the per-trip costs could be comparable to transit, but 
with greater convenience and speed.
---------------------------------------------------------------------------
    \33\ Lawrence D. Burnes, William C. Jordan, and Bonnie A. 
Scarborough, Transforming Personal Mobility, The Earth Institute, 
Columbia University, January 27, 2013; and Tasha Keeney, ``What If Uber 
Were to Adopt Shared Autonomous Vehicles (SAVs)?'' ARK Invest, June 22, 
2015.
---------------------------------------------------------------------------
    Second, shared autonomous vehicles must be available where people 
live. Car-sharing vehicles and taxis are not readily available in most 
small towns and rural communities because there are too few people to 
support the services. Furthermore, those who live in poor urban areas 
are another underserved segment in today's mobility market. Transit may 
not offer complete solutions, and taxis have historically been scarce 
because of the low demand compared to wealthier urban areas.\34\ The 
lower cost of shared autonomous vehicles may increase the availability 
in underserved regions where other transportation solutions are 
limited.
---------------------------------------------------------------------------
    \34\ Mark W. Frankena and Paul A. Pautler, An Economic Analysis of 
Taxicab Regulation, Bureau of Economics, No. 1103, May 1984; Nelson 
Nygaard, Boston Taxi Consultant Report, 2013; and Hara Associates Inc., 
Best Practices Studies of Taxi Regulation: Taxi User Surveys, prepared 
for San Francisco Municipal Transportation Agency, 2013. Today's ride 
share services may be helping provide better service in these 
underserved populations (see the Uber-funded study by Rosanna Smart, 
Brad Rowe, Angela Hawken, Mark Kleiman, Nate Mladenovic, Peter Gehred, 
and Clarissa Manning, Faster and Cheaper: How Ride-Sourcing Fills a Gap 
in Low-Income Los Angeles Neighborhoods, BOTEC Analysis Corporation, 
July 2015).
---------------------------------------------------------------------------
    Third, shared autonomous vehicles need to be accessible. This 
includes vehicle design, websites, and technology interfaces that are 
consistent with Americans with Disabilities Act and other accessibility 
standards and guidelines. It also includes implementing diverse payment 
systems that do not require smart phones or credit cards. Meeting these 
design goals can be expensive. For example, the National Highway 
Traffic Safety Administration estimates that the cost of a new vehicle 
with adaptive equipment (e.g., mechanical hand controls, power transfer 
seats, and lifts and ramps) can be $20,000-$80,000.\35\ The cost for 
accessible autonomous vehicles may be lower because the vehicle only 
needs to be modified for passenger use; it does not need to be modified 
to enable driving.
---------------------------------------------------------------------------
    \35\ National Highway Traffic Safety Administration, Adapting Motor 
Vehicles for People with Disabilities, June 2015.
---------------------------------------------------------------------------
Policymakers Can Promote Affordability, Availability, and Accessibility
    All of this suggests that autonomous vehicles may increase mobility 
for historically underserved populations in a way that is more 
affordable, available, and accessible than existing transportation 
options. However, there is a clear and essential role for sound policy 
in realizing these benefits.
    First, policymakers can create incentives for manufacturers to 
prioritize these markets and reach them sooner than they might 
otherwise. Incentives can include cost-sharing programs, subsidies, or 
other financial levers. They can also include partnerships to integrate 
both public and private shared autonomous vehicles into existing 
transit and paratransit services so that they are complementary rather 
than competing. This may involve making payment seamless across modes, 
providing transfer benefits across modes, and integrating scheduling. 
Private ride-share services are already working with transit agencies 
to provide connections to existing transit services, but primarily in 
urban areas.
    Second, policymakers may need to incentivize technology developers 
to ensure that accessibility for diverse populations is a priority when 
designing these vehicles. This includes facilitating collaboration 
between developers, healthcare providers, independent living centers 
and other facilities, and, most importantly, the users themselves. 
Participatory design will be key.
    Third, while the cost of shared autonomous vehicles is expected to 
be lower than many alternatives, public assistance may still be 
warranted. In many regions, seniors and individuals with disabilities 
ride transit at a discounted rate or even for free. Policies would be 
needed to extend these discounts to shared autonomous vehicle services.
    In sum, autonomous vehicles present an enormous opportunity to 
improve mobility for millions of Americans who are currently 
underserved by our existing transportation system. The social, health, 
and economic benefits could be enormous. Policymakers can play an 
important and distinct role in prioritizing and enabling the technology 
so that autonomous vehicles can help democratize America's 
transportation system.
    what mechanisms can help realize the benefits and mitigate the 
                   drawbacks of autonomous vehicles?
    In addition to transforming safety and mobility, autonomous 
vehicles may also shape other areas of transportation, including 
congestion, energy and pollution, and land use. Some potential impacts 
will be positive while others will be negative. All of the impacts are 
complex and difficult to predict, but despite the uncertainty, 
policymakers can help nudge the free market in the right direction.
The Impacts of Autonomous Vehicles on Congestion
    Congestion has enormous societal costs. Travel delays resulting 
from traffic congestion caused drivers to waste more than 3 billion 
gallons of fuel and kept travelers stuck in their cars for nearly 7 
billion extra hours--42 hours per rush-hour commuter.\36\ The total 
cost to the United States was $960 per commuter, or $160 billion for 
the Nation as a whole.
---------------------------------------------------------------------------
    \36\ David L. Schrank, Bill Eisele, and Timothy J. Lomax, The 2015 
Urban Mobility Scorecard, College Station, Tex.: Texas A&M 
Transportation Institute, 2015.
---------------------------------------------------------------------------
    Even if autonomous vehicles had no impact on the incidence of 
congestion, they could reduce the cost of congestion. If individuals 
can work in their cars, the cost of the time spent in traffic could be 
reduced substantially, even if the time itself is not reduced.
    Nevertheless, the potential impact of autonomous vehicles on 
traffic congestion itself could be substantial but is uncertain. 
Traffic congestion could be significantly reduced because more vehicles 
can fit on a given stretch of roadway if they are autonomous. In the 
near term, autonomous vehicle platooning (where cars drive close 
together to reduce air resistance and increase fuel economy) can enable 
greater throughput; in the longer term, if a large number of vehicles 
are autonomous, lanes could be made narrower, creating more usable road 
space. If autonomous vehicles are much safer, they could significantly 
reduce crashes, which are a major source of congestion. Shared 
autonomous vehicles could provide better connections to main transit 
lines, leading to increases in use.\37\
---------------------------------------------------------------------------
    \37\ Johanna Zmud, Jason Wagner, Richard T. Baker, Ginger Goodin, 
Maarit Moran, Nidhi Kalra, and Dan Fagnant, Policy and Planning Actions 
to Internalize Societal Impacts of CV and AV Systems in Market 
Decisions, interim deliverable to the National Cooperative Highway 
Research Program, Transportation Research Board of the National 
Academies of Sciences, Engineering, and Medicine, May 2016.
---------------------------------------------------------------------------
    However, there is a flip side. Because autonomous vehicles will 
lower the costs of driving by car--by enabling productivity in the 
vehicle, reducing fuel costs through greater fuel economy, avoiding 
parking fees, and lowering insurance costs through greater safety--they 
could also increase the amount of driving. Improvements in mobility for 
underserved populations would also add to the amount of driving. If 
people can do the same things from the comfort of their own cars, fewer 
people might take public transit.\38\
---------------------------------------------------------------------------
    \38\ Zmud et al., 2016; Anderson et al., 2014.
---------------------------------------------------------------------------
    Accurately predicting the net effect on transportation demand is 
impossible because of the disruptive nature of autonomous vehicles. 
Just as we could not predict in 1990 how the Internet would change how 
and how much we would communicate 20 years later, we cannot confidently 
predict today how autonomous vehicles will change how and how much we 
will travel 20 years from now.
The Impacts of Autonomous Vehicles on Energy
    Autonomous vehicles could increase fuel efficiency, but the net 
effect is unclear because they may increase travel demand, which could 
negate those gains. To the extent that fossil fuels remain the primary 
source of transportation energy, this would have knock-on effects in 
foreign oil dependence, air pollution, and greenhouse gas emissions.
    The way people operate and maintain vehicles is inefficient. 
Aggressive driving alone can drop fuel economy by 25 percent, and not 
using cruise control on highways can drop it another 7 percent.\39\ 
Autonomous vehicles can avoid these behaviors and thus reduce fuel 
consumption. Adding to this, even relatively simple levels of 
automation can enable platooning.
---------------------------------------------------------------------------
    \39\ Michael Sivak and Brandon Schoettle, ``Eco-Driving: Strategic, 
Tactical, and Operational Decisions of the Driver That Influence 
Vehicle Fuel Economy,'' Transport Policy, Vol. 22, July 2012, pp. 96-
99.
---------------------------------------------------------------------------
    In the longer term, if autonomous vehicles that crash less are 
widely used, they could be built lighter, which will further reduce 
fuel consumption and emissions. Less obviously, fully autonomous 
vehicles might be able to jump-start alternative transportation fuels. 
One of the key obstacles to both plug-in electric and hydrogen fuel 
cells, which have zero tailpipe emissions and can use renewable energy, 
is the lack of refueling or charging infrastructure. This becomes much 
less of a problem if cars can drive themselves to refueling or 
recharging stations because far fewer stations are needed.\40\ One 
recent study showed that electric shared autonomous vehicles could 
reduce greenhouse gas emissions in 2030 by 87-94 percent relative to 
current conventional vehicles and 63-82 percent below projected model 
year 2030 hybrid vehicles because of decreases in future carbon 
intensity of electricity, ``right sizing'' of vehicles, and higher 
miles traveled per vehicle.\41\
---------------------------------------------------------------------------
    \40\ Anderson et al., 2014.
    \41\ Jeffery B. Greenblatt and Samveg Saxena, ``Autonomous Taxis 
Could Greatly Reduce Greenhouse-Gas Emissions of U.S. Light-Duty 
Vehicles,'' Nature Climate Change, Vol. 5, No. 9, 2015, pp. 860-863.
---------------------------------------------------------------------------
    On the other hand, passengers may prefer larger autonomous vehicles 
to allow them to take better advantage of the opportunity to do things 
other than driving, resulting in lower fuel economy and greater 
emissions.\42\ And, of course, they may drive more.
---------------------------------------------------------------------------
    \42\ Anderson et al., 2014.
---------------------------------------------------------------------------
The Impacts of Autonomous Vehicles on Land Use
    Automobile use has influenced the form and extent of land 
development in the United States, leading in large part to sprawl (that 
is, low-density, inefficient land-use patterns).\43\ The land allocated 
to automobile infrastructure poses a cost to society: It could 
otherwise be used for farms, open space, homes, businesses, and other 
facilities, with associated environmental, economic, and public health 
effects.\44\
---------------------------------------------------------------------------
    \43\ Robert Burchell, George Lowenstein, William R. Dolphin, 
Catherine C. Galley, Anthony Downs, Samuel Seskin Katherine Gray Still, 
and Terry Moore, Costs of Sprawl-2000 TRCP Report 74, Federal Transit 
Administration, 2002.
    \44\ M. A. Delucchi and J. J. Murphy, ``How Large Are Tax Subsidies 
to Motor-Vehicle Users in the U.S.?'' Transport Policy, Vol. 15, 2008, 
pp. 196-208.
---------------------------------------------------------------------------
    Autonomous vehicles may affect land use in two opposite ways, and 
both could take place. Commute time and distance are among the key 
factors households consider in deciding where to live. While areas 
father away from central business districts offer many benefits, 
particularly in housing size and cost, a longer commute may be too 
costly, both in terms of travel and time costs. However, given the 
ability to engage in other activities while in an autonomous vehicle, 
the opportunity cost of transportation declines. This could increase 
the willingness of households to locate farther away from the urban 
core, increasing urban sprawl.\45\
---------------------------------------------------------------------------
    \45\ Anderson et al., 2014.
---------------------------------------------------------------------------
    On the other hand, autonomous vehicles could also lead to greater 
density in core urban areas. Driving remains the dominant mode of 
passenger travel in the United States, even in large cities with good 
transit options, but the typical automobile is parked for about 95 
percent of its lifetime.\46\ As of a decade ago, the total area devoted 
to parking spaces in major central business districts was, on average, 
about 31 percent of the district area.\47\ The emergence of autonomous 
vehicles could sharply reduce the amount of parking needed in core 
urban areas in several ways. First, after dropping off its passenger or 
passengers in a downtown location, an autonomous vehicle could pilot 
itself to a remote lot in a peripheral area, reducing the amount of 
parking needed in the densest urban areas where land values are 
highest. Second, as described earlier, autonomous vehicle technology 
might lead to a new model for urban mobility in the form of driverless 
taxis. Under such a system, autonomous vehicles would not need to park 
after every trip; rather, after dropping off one passenger, they would 
simply travel to pick up the next passenger. Third, the convenience and 
low cost of such a system might induce many urban dwellers to forgo car 
ownership, or at least to reduce the number of cars owned. Thus, 
driverless taxis could reduce the number of parking spaces needed in 
residential buildings, as well as at commercial centers.\48\ These 
effects, emphasizing the service character of transportation, could 
free up substantial amounts of space in urban areas for other valuable 
uses: homes, businesses, parks, hospitals, and so on.
---------------------------------------------------------------------------
    \46\ Donald C. Shoup, The High Cost of Free Parking, Chicago: 
Planner's Press, 2005.
    \47\ Shoup, 2005.
    \48\ Zmud et al., 2016.
---------------------------------------------------------------------------
Driving Externalities May Prevent the Benefits from Being Realized
    While the effects of autonomous vehicles are complex, some outcomes 
are clear wins. If safe autonomous vehicles are developed and used 
widely and responsibly, the current public safety crisis in the U.S. 
transportation system could be mitigated. If safe and usable autonomous 
vehicles are developed, mobility could increase for millions of 
Americans who currently have limited mobility. In addition, if the 
potential increase in transportation demand created by autonomous 
vehicles were mitigated or decoupled from fossil fuels, there could be 
enormous energy security, public health, and environmental benefits. 
Related to this, if shared autonomous vehicles are widely available and 
widely used, this could reduce private vehicle ownership and the need 
for road infrastructure, allowing repurposing of land to more 
economically productive uses.\49\
---------------------------------------------------------------------------
    \49\ Zmud et al., 2016.
---------------------------------------------------------------------------
    Yet these outcomes may not actually be realized because many 
benefits accrue to society rather than to either the producers or 
consumers of autonomous vehicles. Consumers may be unwilling to pay for 
expensive technology if much of the benefits go to others, and 
consequently, producers may be less willing to develop them. Thus, 
there is less incentive for producers and consumers to take actions 
that would achieve beneficial outcomes.\50\
---------------------------------------------------------------------------
    \50\ Zmud et al., 2016.
---------------------------------------------------------------------------
    Safety is a good example of this phenomenon, with significant 
consequences for autonomous vehicles. When an individual drives 
unsafely or operates an unsafe vehicle, he not only puts his own well-
being at risk but also the well-being of all other road users around 
him, including pedestrians and bicyclists. However, in our current 
transportation and legal system, an individual is responsible for only 
a fraction of the full cost of being unsafe. In many States, motorists 
are required to carry only $30,000 (or less) worth of liability 
insurance--far less than is necessary to compensate someone for a 
serious injury, much less a loss of life. This leaves a huge gap 
between the harms that are regularly inflicted by drivers and the 
amount available for legal recovery. In essence, society subsidizes 
dangerous vehicles and driving behavior, creating less incentive for 
safer vehicles and behaviors.
    Economists call this an externality. An externality is an effect 
that one party imposes on another party without compensating them for 
the effect if it is negative or charging them for it if it is 
positive.\51\ The free market does not allocate resources well in the 
presence of externalities because the true costs and benefits of 
actions are distorted.
---------------------------------------------------------------------------
    \51\ James M. Buchanan and Wm. Craig Stubblewine, ``Externality,'' 
Economica, Vol. 29, No. 116, 1962, pp. 371-84.
---------------------------------------------------------------------------
    Consider how the safety externality dampens the market for safe 
vehicles, including safe autonomous vehicles. First, buyers' incentive 
to purchase safe autonomous vehicles (which we can expect to be 
expensive, at least at first) is less than it would be if full social 
benefits of safe vehicles were reflected in a lower price tag. Second, 
and related, auto manufactures' incentives to create as-safe-as-
possible autonomous vehicles are less than they should be, because 
safety is undervalued in the marketplace.\52\ The result is that very 
safe autonomous vehicles could be technologically feasible, but fewer 
firms will develop them and fewer individuals will buy them because 
many of their benefits accrue to the public rather than the purchaser.
---------------------------------------------------------------------------
    \52\ This externality explains, in part, why there is little market 
for vehicles that are designed to better protect individuals outside of 
the vehicle in the event of a crash. The technology exists, but the 
societal benefit of protecting others does not reach the buyer in the 
form of a relatively lower-priced vehicle.
---------------------------------------------------------------------------
    Safety is just one externality. Many of the benefits and the costs 
of autonomous vehicles (and vehicles in general) are external. If a 
buyer's car is energy efficient, it helps the buyer somewhat, but most 
of the benefits go to other people (e.g., the people who breathe the 
air in the area where that vehicle is driven). Those costs (e.g., of 
poor air quality) are real and are borne by society. If the benefits of 
reducing pollution are not factored into the buyer's cost of the 
vehicle, there is little incentive for them to buy it, particularly if 
the vehicle is more expensive than less-efficient alternatives.
Policymakers Can Promote Beneficial Outcomes by Internalizing 
        Externalities
    So, how can we solve the externality problem? The key is to use 
policy tools to ``internalize'' externalities so that market prices 
reflect the true costs and benefits of private-sector actions. This can 
be done with subsidies, user fees, mandates, and privileges to ensure 
that producers and consumers of autonomous vehicles receive the benefit 
from (and are thus incentivized toward) making choices that benefit 
society.
    As just one example, when a driver uses a busy road, he adds to 
congestion that other travelers experience, but he does not have to pay 
for the cost of that extra congestion--the lost productivity of others 
as they sit in traffic, the delay in goods movement, and the local 
increase in pollution. But congestion is a problem that could be 
solved. Nearly all passenger vehicles in this country have space for at 
least four people, but on average, there are just 1.67 passengers.\53\ 
Those unused seats are extra, already-built transportation capacity. 
But that capacity is not used because, in large part, the costs of 
carpooling are internal (the driver bears the cost of the effort and 
hassle) but the benefits of carpooling remain external (the driver does 
not benefit from reducing society's congestion). High-occupancy-vehicle 
(HOV) lanes are one partial remedy: They help internalize the positive 
externalities of carpooling by enabling carpoolers to themselves bypass 
congestion and get to their destinations faster.
---------------------------------------------------------------------------
    \53\ Federal Highway Administration, Summary of Travel Trends: 2009 
National Household Travel Survey, June 2011. As of November 8, 2016: 
http://nhts.ornl.gov/2009/pub/stt.pdf.
---------------------------------------------------------------------------
    There are many policy options to internalize not only the 
congestion externality but also the other driving externalities related 
to safety, pollution, oil dependence, and mobility. These include 
creating insurance requirements that strengthen the market for road 
safety, offering transit incentives that reduce congestion, and 
offering rebates for using fuel-efficient vehicles, among others. Each 
option has a long history of research and discussion, and these and 
other options have been implemented to varying degrees.
    It is not possible today to give each policy the discussion it 
warrants. Nevertheless, now is the time to revisit the impact of 
driving externalities and the policies to internalize them, because 
autonomous vehicles could improve our transportation system 
tremendously, provided the right market signals are in place. In other 
words, because so many of the benefits and costs of autonomous vehicles 
would accrue to people other than the buyer, internalizing 
externalities is a key step to ensuring that society minimizes their 
disadvantages and maximizes their benefits.
    There is also a current window of opportunity to send those new 
market signals because consumer expectations about autonomous vehicle 
costs, performance, and other characteristics are not yet set. For 
instance, congestion pricing requires drivers to pay a fee to travel 
during peak rush hour, because driving during rush hour imposes higher 
congestion costs on everyone than driving at other times does. Although 
congestion pricing is widely recognized as an effective means of 
internalizing the cost of congestion and thereby reducing congestion, 
it has been difficult to implement, partly because drivers are 
unaccustomed to paying different prices based on when they travel. 
However, today, many private ride-sharing companies charge an extra fee 
for their services during rush hour, analogous to congestion pricing. 
Because these services are new and the reasons for the charge are 
understandable to consumers (greater demand for a limited supply of 
goods), these fees have been generally acceptable. Similarly, consumers 
may be more amenable to new policies that internalize the externalities 
of driving now, before autonomous vehicles are available, rather than 
later, once expectations about autonomous vehicles are set. Of course, 
these policies must apply to all auto travel, not just autonomous 
vehicle travel, for the market signals to be clear.
    In sum, it is not possible to fully predict what a future with 
autonomous vehicles will look like. However, by using the current 
window of opportunity to internalize the externalities of driving, it 
is possible to send the right market signals, paving the way for a 
future transportation system that maximizes the potential advantages 
while minimizing the potential disadvantages. This is an exciting 
future of increased mobility and economic growth and greater 
transportation safety, efficiency, equity, and sustainability.

    [Conflict of Interest Statement: Nidhi Kalra's spouse, David 
Ferguson, is co-founder and president of Nuro, an autonomous vehicle 
startup. He previously served as a principal engineer for Google's 
driverless car project. This written testimony was carefully reviewed 
by subject-matter experts within the RAND Corporation; the research 
quality assurance team for the RAND Justice, Infrastructure, and 
Environment division; and the RAND Office of Congressional Relations. 
However, the opinions and conclusions expressed in this testimony are 
the author's alone and should not be interpreted as representing those 
of the RAND Corporation or any of the sponsors of its research.]

    Senator Collins. Thank you very much for your testimony, 
and I am going to start my questions with you.

                          MOBILITY FOR SENIORS

    As a senator representing a State with the oldest median 
age in the country, I can see tremendous potential for seniors 
whose vision has diminished to the point where they no longer 
can safely drive being able to use these autonomous vehicles so 
that they can maintain a measure of independence and not be 
dependent on others. So I see that, in addition to the safety 
benefits, and really the two are linked, as being a tremendous 
advantage.
    Another advantage which I wondered whether you had analyzed 
at all is whether there would be an impact on the insurance 
market and the rates that individuals would pay for insurance 
if they are driving cars with either limited safety features 
that have been added to it or are fully autonomous.
    Dr. Kalra. I appreciate the note about seniors. My 
grandparents are in that same boat, so I understand that very 
clearly.
    In terms of insurance, yes, in the long run we might expect 
insurance rates to go down because fewer crashes mean lower 
costs for personal injury and damage, and eventually they may 
be needed for declining auto insurance. But in the short run, 
it's actually hard to say what the effect of insurance is going 
to be, for a few reasons.
    First, it may take many years or many decades for the fleet 
to become largely autonomous, so the risks may not change as 
quickly as we anticipate.
    Second, because at least for some types of autonomous 
vehicles there's going to be shared control between the human 
and the machine, there may be over-reliance on the technology, 
which is one of the things we've seen with Tesla. So it may not 
necessarily translate into lower crashes or crash rates. That 
remains to be seen.
    And third, the car repair costs for a crash could actually 
increase, because right now if I rear-end someone, it's a few 
hundred dollars to bang out that bumper, but in the future it 
could be much more expensive.
    Now, there's a different issue with people who are insured 
at the minimum insurance rate, but that's a little more 
complicated. We can go there if you want to.
    Senator Collins. Thank you.

                     EXISTING VEHICLE TECHNOLOGIES

    Administrator, we heard Ms. Hersman say that three 
technologies, if they were mandated, could save some 10,000 
lives. Now, whenever the Federal Government mandates, there is 
obviously cost involved. But I am curious whether NHTSA has 
considered mandating proven safety technologies that are 
available right now on new vehicles as they're manufactured. I 
should make that clear.
    Mr. Rosekind. In fact, I think as soon as anybody says to 
any of you ``We need to regulate to get safety,'' the first 
thing you need to ask is what are we going to regulate? Because 
for regulation we need performance criteria, testing, we need 
to know that there's enough penetration that we have sufficient 
data, cost/benefit analyses, et cetera.
    I say that because the last technologies that we have seen 
come through rulemaking are things like electronic stability 
control, that rear visibility camera that you like so much, 
advanced air bags. Those took 6, 8, and 10 years to actually 
get through the regulatory process. That's really important 
because in these new technologies, by the time those rules 
would come out it would be irrelevant for the new technology 
that would have evolved.
    And I say that because, quickly, in September of 2015 we 
actually challenged the auto industry: how do you take 
automatic emergency braking and make it standard on all 
vehicles? This is called democratizing safety. So it's not just 
on high-end or an option. Basically what they did was in March 
come back, and 20 automakers are going to make AEB standard by 
2022 on all vehicles in our country. That will beat regulation 
by 3 or 4 years. We can count the lives saved.
    So there are ways to do this besides regulation, and I 
think we have to use the right tool. For the moment, this 
policy is the right tool at the right time.

                STATE REGULATIONS OF AUTOMATED VEHICLES

    Senator Collins. Well, let me ask you the other side of 
that coin. The guidance the Department has put out said a 15-
point safety assessment is voluntary, but as you're well aware, 
States like California are already proposing to make it 
mandatory for companies that want to test or deploy automated 
vehicles. What can you do, what can NHTSA do to ensure that 
States do not arbitrarily mandate various aspects of your 
guidance document, thereby creating a patchwork of ever-
changing State laws that would stymie innovation and the 
deployment of these vehicles?
    Mr. Rosekind. Really, a huge part of including that piece, 
the model state policy, was to differentiate the Federal versus 
State roles. In fact, directly to your point, we make it 
absolutely clear that States actually have to do nothing in 
this area. They can actually support the advancement of these 
safety technologies with no policy or regulations. If they 
choose to, we identify some areas where they can move forward. 
Everyone on the State level that we've interacted with is 
absolutely interested in seeing a consistent framework and 
trying to avoid the patchwork. This is an area I think we need 
to watch and see it develop.
    And California, as you mentioned, if you look at their 
early, sort of recommended policies, they've changed 
dramatically in their latest proposals because they waited for 
this policy.
    So I think everybody is seeing an effort and an interest 
right now in trying to prevent that patchwork, and we're going 
to have to wait and see how it actually develops.
    Senator Collins. But should the States even be involved in 
this area, or should it be left up to the Federal Government so 
that there is a nationwide standard and approach?
    Mr. Rosekind. In the policy we make that explicit, here's 
what the Federal Government is concerned about, standards for 
the vehicles, defects, et cetera, and the States, they still 
stay responsible and they don't have to do anything. We make 
that explicit.
    Senator Collins. You do, but if California is moving 
forward to implement your guidance and make it mandatory, isn't 
that contrary to the goal of your guidance?
    Mr. Rosekind. Two things. One is we are explicit in there 
saying that this policy was not intended to codify, and at the 
same time I think right now California has not actually put 
their regulations out. They've put a proposal out. They've 
talked about other aspects, that they want to evaluate it, and 
they're even questioning the language that's being used, and 
that's what I'm saying. I don't think we even know what their 
final stance is going to be, because they have continually 
emphasized the need for consistent framework.
    Senator Collins. Senator Reed.

                             CYBERSECURITY

    Senator Reed. Well, thank you, Chairman, very much.
    I agree with Mr. Brubaker; computers don't get tired, they 
don't get road rage, but they open a whole new dimension of 
cyber security which we have to deal with. I know, 
Administrator, the FAVP encourages information sharing on cyber 
security, but we've seen incidents in which systems have been 
hacked recently, vulnerabilities in automobiles, GPS systems, 
insurance plugins have been used.
    So can you give us an idea of what you're doing in terms of 
ensuring that we can reassure the public that these vehicles 
will not be subject to cyber attacks?
    Mr. Rosekind. Thank you for emphasizing this issue because, 
as you've heard from pretty much everybody, without public 
confidence in these vehicles, it's just not going to happen.
    So specifically to cyber security, NHTSA has actually been 
on this for many years. In 2012 we formalized that with a 
group, an office within the agency. Just recently we have had a 
roundtable with 300 people, pulling them together. We had an 
intra-government meeting after that, which has resulted in 
everything from urging and supporting an agency, Auto ISAC, 
Information Sharing and Analysis Center, within the industry. 
The industry has come out with their own best practices. Just a 
few weeks ago, NHTSA came out with its own cyber security best 
practices. Just yesterday the Department of Homeland Security 
actually highlighted our cyber security best practices, a model 
for other industries to go after.
    So the good news is all of this has been done before an 
incident has actually occurred within the auto industry. One 
that everybody knows about, about a year ago in July Wired 
Magazine, that was planned. That was a researcher demonstrating 
it could be done. I'd point out that even with the authorities 
and tools we had, within 3 days the defect was called and 1.4 
million vehicles basically were already under remedy at that 
point.
    So I would just say it's a constant vulnerability. It 
clearly is a threat that needs to be addressed. But for the 
moment there's a lot of action going on in that arena.
    Senator Reed. Let me just quickly follow up with Ms. 
Hersman, and thank you. How do you think outside expertise 
could assist in combatting these cyber threats and regulating 
advanced technologies like HAVs?
    Ms. Hersman. I think there's a tremendous opportunity to 
call on experts, just like this committee does. Things change 
very quickly, and when it comes to technology, we certainly 
can't expect NHTSA to always stay on the cutting edge. 
Potentially having advisory groups, organizations that will 
assist them in evaluating new cutting-edge technology is an 
opportunity that they should consider and take advantage of 
going forward. We're going to ask so much of this agency when 
it comes to looking at the evolution of technology that we need 
to support them and give them opportunities to get the best and 
the brightest to weigh in on it.
    Senator Reed. Thank you very much.

                            IMPACT ON LABOR

    Dr. Kalra, I seem to be emphasizing the potential 
challenges rather than the golden opportunities, but we should 
do that. And one of them, as I mentioned in my statement, is 
employment, roughly 3 to 4 million jobs that are good jobs. 
You've done some work, I believe, on this. You made some 
comments in your discussion.
    Can you just comment upon the implications of the labor 
market, both positive and negative, for these vehicles?
    Dr. Kalra. Absolutely. So you're absolutely right that 
there are millions of Americans who make their living behind 
the wheel, and there's no question that autonomous vehicles do 
threaten those jobs. I think we have to stare that back in the 
face. The question is what to do about it.
    This transition to full autonomy is going to take time, so 
time can be an advantage in this respect in that we are ahead 
of the curve. We can start thinking now about how to develop an 
alternative job market, where that's possible. We also know 
that freight may be one of the areas that is first hit because 
of the private nature of the industry and because we're talking 
about goods movement rather than people movement. So the 
technology may make its way there faster. One aspect of that is 
that many freight experts project a lack of supply of drivers 
in the future, so there may be a little cushion in there.
    In terms of on the flip side, autonomous vehicles will 
create new kinds of jobs or increase the technical nature of 
existing jobs. An auto body shop is not going to look the same 
as it does today. So we need to prepare our young people 
especially, people in community colleges, for those high-tech 
jobs.
    The broader issue is that autonomous vehicles could and, I 
believe, will democratize transportation and give mobility to 
people who currently don't have it. Important to that is 
physical mobility. Being able to get around is one of the most 
important things to help people out of poverty, getting them 
access to training, getting them to jobs. The unfortunate part 
is people who have the least access to transportation often are 
the ones who struggle to get jobs, people who are in poverty 
who can't afford their cars.
    So there's two sides of this coin. I think we need to do 
everything we can to bring mobility to people who are currently 
underserved by our transportation system, while providing 
cushion to people who will be negatively affected.
    Senator Reed. Your comments seem to be there has to be a 
conscious, deliberate planning process because this is coming.
    Dr. Kalra. That is right.
    Senator Reed. And your best guess at when we'll see, for 
example, significant autonomy in freight delivery? Is it 5 
years? 10 years? Too far to guess?
    Dr. Kalra. I can only guess. I would be surprised if we 
don't have it in 10 years. I would be surprised if we do have 
it in the next two to three.
    Senator Reed. Okay. Anybody else want to take a wild guess, 
like the lottery?
    Senator Reed. Okay. Thank you, Madam Chairman.
    Senator Collins. Thank you, Senator.
    Senator Daines.

                             DATA SECURITY

    Senator Daines. Thank you, Madam Chair and Ranking Member 
Reed. And thank you for testifying here today. This is a topic 
that covers many issues I care deeply about. As a 5th 
generation Montanan, we have a lot of open space, a lot of 
roadways. In fact, we just wrapped up the election season, and 
one of the candidates running for governor traveled 64,000 
miles during the course of the campaign on the roads. So that 
kind of puts in perspective that we're not as big as Texas or 
Alaska or California, but we have to drive a lot more. So I 
care very much about what you're talking about, saving lives, 
to improve passenger and freight mobility, very important for 
us in a State that requires moving our products, ag products 
particularly, around the world.
    I'm very excited about these new technologies. I spent 12 
years in the cloud computing business, executive capacity, 
before I came to politics.
    So I wanted to follow up on Senator Reed's question on the 
cyber piece here, Mr. Rosekind. You said in your testimony that 
the quickest way to slam the brakes on innovation is for the 
public to lose confidence. I think that's well said. I was a 
private employee for 28 years, and the best was when I didn't 
have my information compromised, until I became a Federal 
employee. Then I got the letter from OPM. Thank you, Federal 
Government here. I never had that issue in the private sector.
    Mr. Rosekind. I got that letter, too.
    Senator Daines. Many of us did. I'm sure if we polled the 
audience here, there would be a lot of hands going up. Clearly, 
we want to make sure we're protecting privacy and hardening our 
systems.
    Many consumers no longer have confidence in the government. 
I appreciate the fact that you're bringing some advisory groups 
in to bring that perspective. Going fast, at the speed of 
business out there, sometimes I think government needs to.
    How is NHTSA gaining the public's confidence with this 
latest guidance that you're looking at here as it relates to 
cybersecurity?
    Mr. Rosekind. I think in the policy, one of the ways 
actually that we're trying to do that is through the innovation 
approach. I think, just like when people talk about regulation, 
when you talk about cyber security, if someone were to say 
regulate that, as you know, the speed that this stuff is 
changing, by the time you get through a 6- to 10-year 
regulation it's not going to be relevant anymore.
    So, one of the 15 safety assessment items is cyber 
security. Everybody has to tell us how they're addressing that 
particular issue, and our intent here is to see as many 
different forms of innovation coming to us as we can, and the 
data will drive the safest and best way to protect these 
systems. In fact, at some point, if there are best practices, 
it should be based on that data. In the future if there's 
rulemaking, it should probably be based as a foundation on 
whatever those best practices were.
    Senator Daines. I know industry has been working 
collaboratively to address cyber and published some best 
practices in July. How did NHTSA's guidance incorporate their 
experiences and expertise?
    Mr. Rosekind. We had a lot of interaction with them. We 
knew what was coming. In fact, I would highlight not just this 
policy but our own best practices came out just a few weeks 
ago, and they complement exactly what we know the industry was 
doing.
    Senator Daines. So I guess my understanding is they didn't 
go through a notice and comment process before being issued. 
Afterwards DOT solicited comments, and I think they're due next 
week. So my question, I guess, is why wasn't there more 
consultation with industry before the guidance was issued?
    Mr. Rosekind. Well, let's keep them separated. The best 
practices came out a few weeks ago, and the policy came out 
September 20th. We actually have an extensive amount of open 
time. So the policy is under a 60-day comment period right now. 
That closes November 22nd. And what was already identified in 
here is 23 next steps. So we actually have a whole new set of 
public meetings that are coming up to talk about all the 
different elements. We just did that last week. We had a 
meeting on the letter, which includes the cyber security part. 
So there's all kinds of other opportunity for people to add 
input.
    Senator Daines. And that's helpful, and I know Senator 
Collins was talking with us a bit about some of this guidance, 
which becomes quasi-regulation. You touched on the time 
required to go through the formal rulemaking process, and the 
guidance allows you to be more nimble, but it may not always be 
as transparent. I think that's one of the political concerns we 
hear.

                           RULEMAKING PROCESS

    Should voluntary guidance policies be used to expedite the 
rulemaking process or Federal enforcement action?
    Mr. Rosekind. I think what we're trying to do is continue 
our enforcement and regulatory tools. We have those 
authorities. We're not giving any of them up. All we've done is 
try and complement those with the way to support innovation at 
this time. It is absolutely possible, if you come in with the 
right data, that we will use that data to create best practices 
and rulemaking. We actually identify potential rulemaking in 
here as well. So that is just one more tool that's being 
included to deal with this fast-paced technology.
    Senator Daines. Thank you. I'm running out of time.

                         DRIVING IN RURAL AREAS

    Dr. Kalra, a question. You discussed lowering the risk to 
pilot programs and raised questions about the ability of this 
technology to function better than humans in complex 
conditions. I come from a State that has a lot of rural roads. 
Fifty-four percent of automobile fatalities occur on rural 
roads despite the fact that just 19 percent of Americans live 
in rural areas.
    How do you incorporate issues like we have in Montana of 
unmapped roads, gravel, snow, wildlife, where 95 percent of the 
roads are rural? As we know, accidents often happen when things 
we don't anticipate occur. How do we lower the risk of these 
technologies in rural settings?
    Dr. Kalra. By testing them in those environments. And I'll 
point to the University of Michigan's testing center for 
autonomous vehicles, where they are committed to testing on 
different kinds of road surfaces, in different kinds of weather 
conditions. We need to get autonomous vehicles not only in 
sunny Southern California but also in Montana, and I think that 
has to be a priority.
    Senator Daines. The sun shines a lot in Montana, but we 
also have ice and big elk out there at times.
    Dr. Kalra. I'm from North Dakota. I know that ice.
    Senator Daines. Oh, you do understand that.
    Dr. Kalra. I do.
    Senator Daines. You might understand ice better than I 
understand it, I think.
    Anyway, thank you. I'm out of time.

                          CYBERSECURITY RISKS

    Senator Collins. Thank you for raising that very important 
issue, which is one that concerns me as well.
    Mr. Brubaker, both of my colleagues have brought up the 
cyber security issue, which is also of great concern to me as 
we've seen we have rogue States and terrorist groups that seem 
to be able to hack into virtually any database. What is the 
industry doing to address the cyber security risks of 
autonomous vehicles, and do you think that there's more that 
NHTSA could do to proactively address such a risk?
    Mr. Brubaker. Yes, I do. The one thing I would caution is 
you want to be very careful in regulating cyber security and 
establishing cyber rules because you tend to lock in a solution 
that's relevant for that time period, but it's not timeless.
    But to answer your specific question about what NHTSA can 
do, I would actually start by going across the river to the 
five-sided building and start talking to the people who have 
been doing embedded system cyber security for years who are 
really good at it. One of the key elements of the third offset 
strategy the Department is pursuing right now--and I know both 
you and the ranking member have a strong defense background, so 
you would get this--is really focusing in on automation and 
robotics, advanced robotics. So they're doing the kind of cyber 
security strategy and employing the kind of tactics that you 
need to really lock down these embedded systems, and they've 
been doing it pretty successfully for years.
    So I think the one thing that we could do is look across 
the river, look to the IC, the intelligence community, for 
lessons learned on how they do encryption, how they do 
authentication. I know that the industry has issued its best 
practices but, frankly, when I look at it, I think it's a lot 
of reinventing the wheel, a lot of things that have already 
been done.
    I would also say, again, the caution on the regulatory 
piece is we've had the Federal Information Security Management 
Act, FISMA, for a number of years, but it didn't prevent the 
OPM hack. So you can issue the regulations, and you can comply 
with those regulations, and you can go down a cyber security 
checklist, but unless it's substantive, and unless it's moving, 
because it's a constant game with the adversaries, and you need 
to understand their motives and what they're about and do the 
risk assessment accordingly and structure your systems from the 
ground up.
    The one area that I think industry has really got to pay 
very close attention to is supply chain integrity, where 
they're securing the components, they know where those 
components come from, they have visibility end to end, and 
there are a handful of companies out there who are focused on 
it, automakers that are focused on it. But by and large, the 
industry is having a very difficult time adjusting its culture 
to harden its systems.
    Senator Collins. Thank you.

                           DISTRACTED DRIVING

    Ms. Hersman, yesterday's New York Times quoted you in the 
area of distracted driving, and you pointed out that new 
technologies that are intended to allow the driver to keep his 
or her hands on the wheel may actually be preventing the driver 
from paying attention to his or her driving environment, and 
the article quotes you as saying it's the cognitive workload on 
your brain that's the problem.
    Are you concerned that automated and self-driving 
vehicles--well, self-driving vehicles are not a problem if we 
really get to that stage. But the semi-automated, if you will--
you have your scale for the degree of automation--are going to 
produce even more distracted drivers and thus more crashes?
    Ms. Hersman. I would say there are always unintended 
consequences when we introduce new things. We do know that 
people are very distracted today. People are addicted to their 
devices that they bring into the car with them. The challenge 
with moving to things like hands-free is that people think that 
the distraction is in their hands, but the distraction is 
really in your brain. We would have outlawed stick-shift cars a 
long time ago if it was our hands that were the problem.
    So when we look at automating vehicles further, what that 
does is potentially has the human being stepping back a little 
bit, and human beings typically are not good monitors. When 
everything works according to plan 99 times out of 100, it's 
hard for the human being to pay attention 100 percent of the 
time. In aviation we call this over-reliance on automation. We 
saw pilots' skills deteriorate as airplanes performed more 
functions for the pilot.
    One of the challenges is how do you compel the human being 
to pay attention so that when they need to take over or when 
they need to intervene, they're ready and they're prepared to 
do so? If you could text, if you could read the newspaper, if 
you could do other things, 99 percent of the time it might work 
well. It's that one time that you need to intervene that you're 
not prepared to, and we haven't even touched on impaired 
drivers and drivers who might be sleeping, who might be 
fatigued or not paying attention.
    So there definitely are some risks and some tradeoffs. I 
think a number of the panelists have touched on these. That's 
why we talk about the messy transition between Level 1 and 
Level 5 and having to keep that human in the loop, how can you 
compel them when they need to be engaged to do it.
    Senator Collins. Thank you.

                    LESSONS FROM VOLVO DEMONSTRATION

    Administrator, last month the world's first shipment by a 
self-driving truck was made by an auto Volvo truck. I watched 
the video of that. There was a professional driver on board 
but, in fact, the truck was driving itself 120 miles along 
Interstate 25, and it was operating fully autonomously without 
that driver's assistance. It was very exciting to watch, but 
I'll have to admit to you it also made me a bit nervous as I 
watched it.
    Are there any lessons from that test that NHTSA has learned 
so far, and would it have any effect on where you're going with 
your future guidance?
    Mr. Rosekind. Absolutely. Let me just add a little bit to 
that confidence. That was actually at 2:00 a.m. in the morning 
with a patrol car behind them, so there was a lot more 
protection there than just what you see in the video, which was 
very promotional.
    Having said that, there is a lot of lessons learned, and 
part of the reason to have the policy out is so that people are 
basically handling all these safety issues before they're ever 
out testing or deploying these kinds of things. That's part of 
what we're trying to do, is be proactive instead of reactive, 
wait for something bad to happen and then react to it. We'd 
rather deal with all of these issues, not just with that truck 
example but what's going on in Pittsburgh. You cited all of the 
exciting things that are happening, but we really need to make 
sure that safety is being addressed, at least for these 15 
items, before these things get tested or deployed on the road.
    Senator Collins. Senator Reed. Thank you.

                            IMPACT ON LABOR

    Senator Reed. Thank you very much, Ms. Chairman.
    Mr. Brubaker, you in your testimony note also this 
potential labor shift and that we have to be prepared to 
respond to it. Could you just give us your advice or your 
thoughts on the type of coordination at the Federal level we 
have to take to anticipate this and deal with it?
    Mr. Brubaker. Sure, absolutely. I want to commend the 
subcommittee for the language that they put in the report 
language last year asking the Secretary to devote funds to TRB 
(Transportation Research Board) to study the economic impacts 
of these self-driving technologies because, as we all know, 
there will be displacement, and we really need to understand it 
and get proactive.
    So it's going to involve a number of different Federal 
agencies. I mean, the obvious one is the Department of Labor. 
They would be best poised to kind of understand where the 
shifts are. But I think even to the point where you're 
identifying the most vulnerable professions would be very, very 
helpful. And then even to the point where if people wanted to 
volunteer proactively for retraining and job placement in 
needed skill areas, we could coordinate that, and it's one of 
the areas that we lay out in our framework. It's the eighth 
area where we really need to be mindful of it and very 
sensitive.
    I mean, I grew up in Youngstown, Ohio, and I saw what 
happens when people don't--and how they vote later--when people 
aren't treated with respect.
    Senator Reed. That's exactly right. I was in Niles a few 
months ago, right outside of Youngstown.
    Mr. Brubaker. Near my hometown.
    Senator Reed. So I get it. We have to be very, very 
conscious of this.

        NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION GUIDANCE

    Doctor, you and RAND published a guide on this technology 
in 2014. As you look at NHTSA's guidance, do you think they're 
addressing policy areas that need to be addressed at the 
Federal level? I have harped on employment and cyber security. 
Are there other issues?
    Dr. Kalra. Can I ask, do you mean for NHTSA in particular, 
or the Federal Government in general?
    Senator Reed. NHTSA in particular, and then go big.
    Dr. Kalra. Okay. For NHTSA, I think they need to continue 
the course that they're going on. Their guidance is admirable. 
It threads the needle well on how do you provide guidance and a 
framework for safety while allowing innovation to occur. But 
one of those items is, for example, ethics, and it asks 
developers to say how will the car handle ethical issues. Even 
if the reporting is done, it's not clear that reporting will 
lead to safety. So there's a gap there because even though one 
can follow the guidelines, that doesn't mean autonomous 
vehicles will be safe, and that's because no one really knows 
how to prove safety in advance of getting these vehicles on the 
road.
    So I think continuing in that direction is important.
    For the Federal Government more broadly, in addition to the 
economic issues, I just want to reiterate that there are market 
distortions. I know this is wonky, this is what RAND does, but 
there are market distortions in our transportation system that 
mean that we don't take full advantage of the opportunity for 
cost savings.
    I'll be very specific. When we have pollution, whether it's 
factory pollution or automotive pollution, that's a real cost 
to our society. It is paid in healthcare. It is paid. It's not 
an invisible cost; it's a real cost. The question is who pays 
for it? So as long as the market does not take into account the 
costs that we all bear for some of these activities, there 
isn't an incentive, a market incentive to reduce them.
    So I think that is something that often gets overlooked as 
we talk about the safety of autonomous vehicles, which is 
understandable. But I would encourage us, if we want this 
future of sustainability and efficiency and mobility for 
everyone, to look at the other things in our transportation 
market that are preventing us already from achieving those 
goals.
    Senator Reed. Thank you.
    Ms. Hersman, in terms of NHTSA's guidance, do you think it 
effectively addresses safety concerns from your perspective?
    Ms. Hersman. I would say it's a good first step, and I 
think we can see the challenge that exists of not having 
anything and having a vacuum, and then the States are stepping 
in, there's a patchwork system. But I think we're also so in 
the early days here. There's so much that we don't know. If 
they were to put out regulations right now, they probably 
wouldn't be the right ones.
    So I think when we look at the balance between the Wild 
West of doing nothing and saying nothing on this and letting 
everyone do whatever they want versus locking everything down 
with prescriptive regulations going into the future, I think 
they've really tried to achieve a fine balance there. I think 
there's more work to be done, absolutely. But I think this 
gives people something to react to. It gives us a framework to 
start from.
    I do want to go back to the issue of workplace. We're a 
safety organization, so we track deaths and injuries. The 
transportation industry is one of the most dangerous when it 
comes to workers' health and their injuries and deaths. They're 
just behind the construction industry for absolute numbers of 
fatalities, and just behind agriculture and mining for the 
rates. So it's a very dangerous job. Forty percent of workplace 
fatalities are motor vehicle crash related.
    So those folks, we want to make them safer too. So if we 
can have that path to figure out how to take care of them over 
the long run, I think this will be good for them as far as 
their safety.

                           ROLE OF GOVERNMENT

    Senator Reed. There are so many opportunities for safety, 
for improved productivity, for better health effects. But then 
there's the other side of the equation of what about the 
drivers that have done a good job, the defined pension, et 
cetera, and suddenly there's an autonomous vehicles and thank 
you very much for your service. We have to deal with that.
    And that goes to the question of there are some people that 
might prefer the Wild West, let the chips fall where they may 
and this will work itself out. But that goes to, Mr. Rosekind, 
the agency has to have a role here.
    So can you just give us a sense of what that role is going 
forward as you deal with a very sophisticated industry that is 
conscious of these issues, the safety advocates of the cyber 
dimensions? Can you just give us assurance that it won't be the 
Wild West but it will be innovative and based on good 
experience?
    Mr. Rosekind. You've just heard from pretty much everybody 
on the panel what a challenging arena to address. How do you 
make sure you don't clamp it down, all this great American 
entrepreneurial spirit that could save lives and make life so 
much better for everybody? Henry Claypool is over there. We 
talk about the elderly. He's representing the disabled 
community. Never had driver's licenses; don't need them. 
Autonomous vehicles can do it. We're just talking about great 
entrepreneurship and innovation being tremendous and not 
wanting the Wild, Wild West. That's why it's the right tool at 
the right time.
    The policy is intended, we hope, to be literally as 
innovative for the government as it is for the technology 
companies. This is a first step. In fact, in there we make a 
commitment that in a year, with all of the different 23 next 
steps that are going on, on an annual basis this policy will be 
reviewed and updated. We can't do that with regulation in any 
kind of effective way.
    So we're trying to strike for a very first effort that 
right balance, to support innovation and safety. People think 
they're at the opposite ends. We're trying to support that 
middle ground, safety and innovation, because we're talking 
about 32,092 lives, and we could save all of them. Autonomous 
vehicles should play a critical role in us getting there.
    Senator Reed. Thank you.
    Thank you, Madam Chairman.

                         ENERGY AND ENVIRONMENT

    Senator Collins. Thank you and I appreciate very much you 
bringing up the employment impact, which is certainly something 
for us all to think about as well.
    I just have a couple more questions. One, Dr. Kalra, do you 
see any energy consumption and environmental benefits from the 
deployment of autonomous vehicles?
    Dr. Kalra. Absolutely. There are tremendous benefits and 
risks. But the benefits include, for example, if we have a 
large number of autonomous vehicles, we can increase the 
throughput of vehicles on our roads, reduce congestion, because 
a lot of congestion is actually caused by crashes. So there's a 
reduction in congestion, which immediately translates into a 
reduction in fuel consumption.
    But if we think big, one of the biggest challenges we have 
in getting real alternative fuels, like hydrogen, into our 
transportation system is the infrastructure problem, meaning 
the distribution problem of how many hydrogen stations do you 
need. And if an autonomous vehicle, fully autonomous, can drive 
itself to a hydrogen station in the future, gas up at 2:00 in 
the morning, or maybe there are long lines but no one cares 
because there's no one in there, autonomous vehicles could 
actually make possible transportation fuels that right now are 
struggling to get off the ground because of these logistical 
issues.
    So the opportunities, dare I say it, are limitless for 
improvement. But again, the market signals should also be in 
play.
    Senator Collins. Thank you.

                         ETHICAL CONSIDERATIONS

    I have one final question that I wanted to ask each of you, 
and that is as I have gotten more involved in this fascinating 
issue, there is a question that keeps occurring to me, and that 
is the ethical considerations that a human driver makes when 
faced with two unpalatable choices. I wonder how do you teach a 
fully autonomous vehicle judgment, the kind of judgment that 
that professional truck driver has because of his or her many 
years of experience.
    I was thinking--and we've all been in these kinds of 
situations where you have to make a split-second judgment on 
whether you're going to swerve around a vehicle that suddenly 
stopped or has spun on an icy road and risk going off the road 
and hitting a tree, perhaps killing yourself and your 
passengers, or a pedestrian or a bicyclist has darted in front 
of you in the road, and yet if you slam on the brakes you're 
going to be back-ended.
    I mean, driving is not a simple task. It requires complex 
judgments all the time. So how does a self-driving vehicle make 
those kinds of judgments?
    We'll start with the Administrator, and I'd like to go 
right down the line.
    Mr. Rosekind. I am going to use that to address two things. 
You've just raised a great example of all the unknowns that are 
out there still related to autonomous vehicles, and the 
questions you've just raised--and there are many, many more 
related to ethics--there are no answers right now. But we are 
taking hands off the wheel, human hands, and putting them into 
the hands of a coder, because that car will be programmed to 
make decisions, basically.
    So I think that's why, for example, people have questioned 
us--it's part of our 15-item assessment. We put ethics in 
there, and people have questions. When you think about when 
people are really going to accept these and have confidence, 
and we know the ethics are going to be an issue people are 
going to ask about, there are no answers right now. That's why 
it's in there for us to really look at the innovation of what 
people bring to this.
    But let me just add one element to that that nobody is 
really talking about. I've been fortunate over about the last 
decade to get to know Captain Gene Cernan, the Apollo 17 
astronaut, the last man who walked on the moon. One of my 
favorite sayings at safety meetings with him is, you know, I'm 
never going to live long enough to make all the mistakes that 
could kill me, right? So why does he go to safety meetings? For 
just that reason.
    So think about how all of us learned to drive a vehicle. 
Our experience is those ethical decisions we're going to make 
are based on our personal experience. Now, with autonomous 
vehicles, if we collect all of this information and share those 
cases where somebody died in some unique edge or corner case, 
if that information were shared, no other person should ever 
lose their life in that same situation because that information 
gets shared with the entire fleet, with every vehicle that's 
out there. That's the future that we could look toward, 
including in these ethical issues. We get to make decisions at 
some point that we could share and make sure that everybody 
basically is allowed the same opportunity to be safe.
    Senator Collins. Thank you.
    Ms. Hersman.
    Ms. Hersman. I would probably fall back on the 10 years 
that I spent at the NTSB and say that we've got to take care of 
the data. That means we've got to learn from the data. It's got 
to be accessible. We have to have standardized, accessible 
formats.
    If you think about black boxes on airplanes, that's how we 
learn. We know what happened. When it comes to autonomous 
vehicles, or even something that's in-between, in order to 
understand those decisions or those outcomes that you talked 
about, who was in charge? The car, the human, or some 
combination of the two?
    We've got to share that data. When we talk about mistakes 
that occurred or close calls or things that happened, if we 
don't have all manufacturers willing to share those lessons 
learned, we're going to have to have each provider learn the 
lesson anew every time. So we've got to look at this 
holistically and say there will be failures. Will there be 
deaths? Absolutely, as this technology rolls out. Will there be 
things that happen that we don't expect? I can't tell you how 
many investigations we went into and people said this was never 
supposed to happen. This scenario was 10 to the minus 9th. It 
was never going to occur, and it did.
    So things will happen, but that data to me is incredibly 
important to how this rolls out and to maintain that confidence 
going forward. We've got to learn.
    Senator Collins. Thank you.
    Mr. Brubaker.
    Mr. Brubaker. Yes. So these ethical issues when they get 
raised cause me to lose the rest of my hair here. Part of the 
issue is we're all thinking about this in a human context. 
We're all sort of applying that judgment that we have to make, 
and what we're not cognizant of or what we're really not 
thinking through is that the level of situational awareness 
that these vehicles are going to have far exceeds that of a 
human. You're talking about redundant sensors. You're talking 
about the ability to see far beyond what a human eye can see 
and have this 360-degree, 24/7 situational awareness.
    The data is important. I agree with the two prior speakers. 
But the thing that we have to remember is that this is all 
about artificial intelligence. This is about instantly 
assessing the situation, constantly assessing it, calculating 
probabilities and reducing the risk of being in an emergent 
situation where you've got to make two really unpalatable 
choices.
    So my whole view on this, and this is from having lots and 
lots of conversations with people in the AI world and people 
who are looking at this and building the sensor suites and 
mashing up this technology, that those ethical considerations 
are--I don't want to call them a red herring, but in many cases 
the whole notion is to create the kind of technology that will 
avoid those emerging situations in the first place.
    Senator Collins. Thank you.
    Dr. Kalra.
    Dr. Kalra. I agree with the other speakers in almost every 
regard. I do want to say that when we raise these vivid 
examples of swerve or do this, people don't actually make 
ethical judgments when they decide what to do. They make snap 
judgments. They don't have time. They barely react. It's just a 
knee-jerk thing that you do without thinking about the 
consequences. The ethical things that we do when we drive, or 
the unethical things, are driving when we're intoxicated, or 
texting while we drive, and autonomous vehicles won't make 
those kinds of ethical mistakes.
    But the ethical judgments that autonomous vehicles will 
have to make I don't believe are the pedestrian versus the 
driver but really about how the autonomous vehicle distributes 
risk on the road at every moment of driving. The example I'll 
give is when I'm driving and there's a bicyclist next to me, 
I'll drive in the middle of the lane because I want to 
distribute the risk differently between the bicycle, myself, 
and the other people who might be on the road. Autonomous 
vehicles will have to make those judgments, and I think 
attention needs to be placed on how do autonomous vehicles 
ethically distribute regular risk on the road rather than in 
the sort of imminent crash cases, and there's no answers to 
this because even ethicists don't have the thing that's the 
right thing to do. But I would urge us to put our attention on 
those everyday kinds of ethical problems.
    Senator Collins. Thank you very much.
    Senator Reed, do you have anything else?
    Senator Reed. No.
    Senator Collins. I want to thank you all for testifying 
today. This was a superb panel.
    This technology is so fascinating and moving so quickly, 
and the fact that it could substantially reduce or perhaps one 
day even eliminate the 94 percent of crashes that are 
attributable to human error is truly an astonishing fact, and 
that's one fact that prompted me to call this hearing.
    I appreciate your advancing our understanding of the 
issues, the technology, and the policy considerations that we 
will have to face.

                          SUBCOMMITTEE RECESS

    The hearing record will remain open until next Wednesday, 
November 23rd, 2016. There may be additional questions 
submitted by us or by our colleagues for the record. We very 
much appreciate your cooperation, and we look forward to 
continue to working with you.
    This hearing is now adjourned.
    [Whereupon, at 3:53 p.m., Wednesday, November 16, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


              MATERIAL SUBMITTED SUBSEQUENT TO THE HEARING

    [Clerk's Note.--The following outside witness testimonies 
were received subsequent to the hearing for inclusion in the 
record.]
Prepared Statement of John Bozzella, President and CEO, Association of 
                           Global Automakers
    On behalf of the Association of Global Automakers (``Global 
Automakers''), I am pleased to provide the following statement for the 
record of the Senate Committee on Appropriations Subcommittee on 
Transportation, Housing and Urban Development, and Related Agencies 
hearing entitled ``The Automated & Self-Driving Vehicle Revolution: 
What Is the Role of Government?'' Global Automakers represents 
international automobile manufacturers that design, build, and sell 
cars and light trucks in the United States. These companies have 
invested $52 billion in U.S.-based facilities, directly employ more 
than 100,000 Americans, and sell 47 percent of all new vehicles 
purchased annually in the country. Combined, our members operate more 
than 300 production, design, R&D, sales, finance and other facilities 
across the United States.
    The automotive industry is in the midst of an unprecedented wave of 
technological innovation that is redefining how we think about 
transportation. Advancements in connected and automated vehicle 
technology promise to enhance mobility, help save lives, improve 
transportation efficiency, and reduce fuel consumption and associated 
emissions. Over the past several decades, our members have made 
tremendous strides in safety by improving vehicle crashworthiness; 
today, automakers are deploying crash avoidance technologies to help 
prevent crashes from occurring altogether. Our members are at the 
forefront of this innovation, as they have made, and continue to make, 
substantial investments in the research and development of automated 
vehicle systems and other advanced automotive technologies.
    With the introduction of advanced sensors such as cameras and 
radar, a number of vehicles on the road today already provide automated 
functionality through advanced crash-avoidance and convenience features 
like automatic emergency braking, lane keeping assist, and adaptive 
cruise control. These systems, which are foundational to the 
development of more highly automated systems, are designed to provide 
support to the driver only in certain situations. As these systems 
become more advanced, a vehicle's capability to operate without active 
control by the driver will increase.
    The next breakthrough in vehicle safety, and a critical technology 
for realizing the benefits of automated driving, is Dedicated Short 
Range Communications (DSRC) connected car technology. This technology 
supports vehicle to vehicle communications (V2V) allowing cars to have 
greater 360-degree situational awareness. Through DSRC, vehicles can 
speak to each other and to surrounding infrastructure at the rate of 
ten times per second to avoid crashes and improve mobility. This 
technology is on the road today; pilot projects and deployments around 
the country are using DSRC supported applications to demonstrate the 
value of connected mobility to the traveling public. Soon, and 
increasingly into the future, we will share our roads with automated 
vehicles; V2V has the ability to connect all vehicles, regardless of 
mode or level of automation.
    While we are indeed at the cusp of a transportation revolution 
through connected automation, these transformations are not inevitable 
nor accidental. Public policy can either spur investment and 
innovation, or hinder them, depending on which policy choices are made. 
Effective public policy on connected and automated vehicles should have 
two components. First, it should be flexible and provide room for 
innovators to develop, test and sell new technologies. Overly 
prescriptive and rigid regulation would slow and limit innovation. 
Second, manufacturers should be able to build vehicles and systems that 
can be sold in all fifty States. A patchwork of inconsistent laws and 
regulation would be unworkable.
    The National Highway Traffic Safety Administration (NHTSA) Federal 
Automated Vehicle Policy, released in September 2016, provides a policy 
framework that is more flexible and nimble than the formal rulemaking 
process, and recognizes that technology can advance more rapidly than 
regulation. Last month, NHTSA issued its Cybersecurity Best Practices 
for Modern Vehicles to complement the important efforts already 
underway within the Automotive Information Sharing and Analysis Center 
(Auto-ISAC) to develop industry-led best practices to enhance vehicle 
cybersecurity as systems become more electronic and connected. Issues 
of consumer privacy have also been addressed through the automakers' 
consumer privacy protection principles. These actions, by Federal 
regulators and industry, help spur the development of live-saving 
technologies and ensure that the public has confidence in them.
    The NHTSA's Federal Automated Vehicle Policy is intended to address 
a number of key policy questions and is a positive first step to 
demonstrate Federal leadership. The Policy is divided into four main 
sections. First, the Vehicle Performance Guidance for Automated 
Vehicles outlines recommended practices for the safe pre-deployment 
design, development and testing of highly automated vehicle systems 
prior to the sale or operation on public roads. The Guidance was 
designed to be flexible and dynamic; it is intended by NHTSA to 
highlight important areas that manufacturers should consider and 
address as they design and test their systems. The Guidance provides 
for a ``Safety Assessment Letter,'' a voluntary tool by which 
developers would communicate to the agency how it addresses fifteen key 
safety areas in designing their vehicles and systems. NHTSA is in the 
midst of developing a template for the Letter, and we believe NHTSA 
should establish a clearly defined and practicable approach that does 
not create an undue administrative burden that could slow innovation. 
It is also our expectation that NHTSA will not use the Guidance and the 
Safety Assessment Letter as a mechanism for ``premarket approval'' (or 
``premarket disapproval'') of automated vehicle technology, as this 
would extend beyond the agency's current authority.
    Second, the agency has developed a Model State Policy which seeks 
to provide guidance to the States in order to help support a more 
uniform nationwide approach to automated vehicle policy. While the 
Policy cannot in itself preempt State action, it does set a clear 
marker in defining the roles of State government in addressing issues 
related to vehicle automation. We support the strong statements in the 
Policy that affirm that ``[t]he shared objective is to ensure the 
establishment of a consistent national framework rather than a 
patchwork of incompatible laws,'' and that ``[the] Guidance is not 
intended for States to codify as legal requirements for the 
development, design, manufacture, testing, and operation of automated 
vehicles.''
    However, despite the guidance in the Model State Policy, several 
States are in the process of establishing their own regulatory programs 
for automated vehicles. In some instances, State departments of motor 
vehicles would assume the responsibility of determining whether a 
particular automated vehicle or system is safe and thus may be sold or 
operated in the State. Such State-by-State regulations would present a 
significant obstacle to the future testing and deployment of automated 
vehicles. While the Model State Policy clearly delineates the Federal 
roles and States' roles, it does not clearly limit or prevent State 
regulation of automated vehicle design and performance.
    Additionally, we have some concerns with certain recommendations in 
the Model State Policy that encourage States to regulate automated 
vehicle test programs. Already, we have seen State proposals to require 
manufacturers to obtain an ordinance authorizing testing from each 
local jurisdiction in which testing will be conducted. However, Federal 
law authorizes original manufacturers to conduct on-road test programs 
and authorizes NHTSA to regulate test programs. Allowing a patchwork of 
State and local test requirements for automated vehicle testing would 
significantly obstruct the development of these vehicles. We are open 
to working with NHTSA and Congress to ensure there is a path forward 
for automated vehicle deployment without unnecessary obstacles at the 
State level.
    Third, the Federal Policy provides a useful description of the 
agency's current regulatory tools, which includes issuance of safety 
standards, interpretations of the meaning and application of standards, 
and exemptions from standards, as well as the agency's ability to take 
enforcement action regarding safety related defects. Each of these 
tools could have a valuable application in facilitating and regulating 
the entry of automated vehicles into U.S. commerce. At the same time, 
we must consider the long-term efficacy of these tools in determining 
whether other regulatory and non-regulatory policies may be appropriate 
and necessary in the future. It is important that any action be data 
driven and technology neutral.
    Finally, the agency discusses the potential new tools and 
authorities that may be necessary in addressing the challenges and 
opportunities involved in facilitating the deployment of automated 
vehicles. We agree with NHTSA's assessment that new authorities could 
assist the agency in facilitating the development and introduction of 
automated technology. However, imprudent legislation in this area could 
have the opposite effect and delay technology development. For example, 
we see no basis at all for any change to the self-certification system 
for vehicles. The Federal Policy's discussion of the Federal Aviation 
Administration (FAA) process of ``premarket approval'' is not practical 
given the structural differences between the automotive industry and 
aviation sector, and implementation of such an approach could 
significantly slow innovation. Similarly, the Safety Assessment Letter 
should not be used as a means to prohibit testing or deployment of 
technology without adequate data to support an unreasonable safety 
risk.
    We believe that NHTSA's Federal Automated Vehicle Policy is an 
important first step in the development of a flexible and nimble 
approach that can adapt to the pace of technology. However, the 
document requires further clarification and refinement to achieve these 
goals. Global Automakers is currently preparing comments on the NHTSA 
guidance and will provide a copy to the Committee upon submission to 
NHTSA. Additionally, we agree with NHTSA that the agency should update 
its Federal Automated Vehicle Policy and regularly review the Policy, 
as it is designed to never be frozen or final. Global Automakers and 
its members remain committed to working with Federal, State, and local 
governments to ensure there is a flexible, consistent framework for 
automated vehicle technologies so consumers can fully realize the 
benefits as quickly as possible.
    In addition, the Federal Government must move expeditiously to 
establish a framework for the deployment V2V communications through 
DSRC connectivity. NHTSA is developing a new vehicle safety standard 
that would require vehicles to be equipped with DSRC technology. Global 
Automakers looks forward to the release of the proposed rule, and will 
continue to work with the Federal Communications Commission to ensure 
that the 5.9 GHz Safety Spectrum remains free from harmful interference 
to support DSRC technology.
    The automobile industry continues to provide innovative 
technologies with demonstrable safety, mobility, and environmental 
benefits. To achieve these benefits, there must be close collaboration 
and coordination among and between government, industry, academia, and 
other stakeholders. Global Automakers and our member companies believe 
that connected and automated vehicles represent the next giant leap 
towards our shared long-term goal of safer and cleaner, and more 
efficient vehicle transportation.
                                 ______
                                 
Prepared Statement of Property Casualty Insurers Association of America
    There are public perceptions that auto accidents and insurance 
costs are decreasing. In fact, our roads are becoming increasingly 
dangerous and auto repair and medical costs are increasing. According 
to the National Highway Transportation Safety Administration (NHTSA), 
17,775 people died on our Nation's roads in the first half of 2016. 
Traffic deaths are increasing at the fastest rate in 50 years, with a 
10.4 percent increase in the first 6 months of this year. Even adjusted 
for the increase in vehicle miles traveled (VMT), the fatality rate 
increased 6.6 percent to 1.12 per 100 million VMT. Non-fatal injuries 
are on the rise as well, increasing 28 percent since 2009, according to 
the National Safety Council. Someday, self-driving cars may reduce the 
number of accidents and deaths. However, the potential of automated 
vehicle technology stands in sharp contrast to what is happening on our 
roads today.
    The Property Casualty Insurers Association of America (PCI) is 
composed of nearly 1,000 member companies, representing the broadest 
cross section of insurers of any national trade association. PCI 
members write $202 billion in annual premium, 35 percent of the 
Nation's property casualty insurance. That figure includes over $97 
billion, or 42 percent, of the auto insurance premium written in the 
United States. PCI's analysis has found that since 2013, auto claims 
frequency has increased nearly 5 percent, increasing the overall cost 
of claims by more than 18 percent. PCI has analyzed the recent increase 
in auto insurance claim frequency and found strong correlations with 
traffic congestion and distracted driving, weaker correlations from 
increasing populations of novice and older drivers, and some 
correlation with liberalized marijuana laws.
    While it is important to prepare for the automated vehicle of the 
future, we urge policymakers to continue to focus on the auto safety 
challenges that face us today, such as distracted and impaired driving. 
H.R. 22, the FAST Act, provides for increased public awareness, 
improved enforcement, and establishing an enforceable impairment 
standard for drivers under the influence of marijuana. These provisions 
are critical to reducing accidents, injuries and deaths on our Nation's 
roads. The importance of addressing these issues was also the subject 
of a bipartisan letter from 23 members of Congress to Transportation 
Secretary Foxx urging prompt implementation of these FAST Act 
provisions.
    [The bipartisan letter is attached.]
    NHTSA recently unveiled its ``Federal Automated Vehicle Policy,'' 
which is intended to provide guidance for States on the testing and 
deployment of highly automated vehicles (HAVs). While mentions of 
insurance are few, the new policy raises issues that are important to 
the automobile insurance market as it seeks to adapt and develop new 
products to meet consumer needs.
   recognition of state regulation of insurance and liability issues
    NHTSA's policy identifies the following as Federal 
responsibilities: setting and enforcing safety standards for motor 
vehicles, recalls, promoting public awareness and providing guidance 
for the States. NHTSA's policy also recognizes that it is the State's 
role to license drivers and vehicles, enforce traffic laws, regulate 
motor vehicle insurance, and legislate regarding tort and criminal 
liability issues pertaining to automated vehicles. PCI shares the view 
that the States should continue to have primacy on motor vehicle 
insurance and liability issues as they do today, and we support NHTSA's 
recognition of that role.
    NHTSA's policy also repeats the recommendation from its 2013 
guidance that entities testing automated technology should provide 
proof of financial responsibility coverage of at least $5 million. PCI 
has not taken a position on this coverage requirement. However, as HAVs 
are deployed for public use, States will need to consider what, if any, 
changes need to be made to existing State motor vehicle financial 
responsibility laws.
                       data collection and access
    As policymakers consider what data should be collected and retained 
by automated vehicles, it is essential that insurers have reasonable 
access to the data for providing customer service for claims handling 
and underwriting purposes. In many auto accidents, apportionment of 
liability is likely to hinge upon whether or not a human driver or the 
vehicle itself was in control and what actions either the driver or the 
vehicle took or did not take immediately prior to the loss event. 
Access to data for insurers will speed claims handling and potentially 
avoid disputes that could delay compensation to accident victims. 
Access to historical anonymized data on the different automated vehicle 
systems will also be important to help insurers innovate and develop 
new insurance products as the nature of the risk changes.
                               conclusion
    Automated driving technology holds great promise for the future. 
Implementing clear policies on the Federal and State roles in 
regulating automated vehicle technology and ensuring that insurers have 
access to vehicle data on reasonable terms to efficiently handle 
claims, develop products and underwrite are essential to that future. 
However, policymakers must not lose sight of the auto safety issues 
that face us today. We look forward to working with policymakers at the 
Federal and State level to reduce accidents on our roads today and in 
the future.

                               Attachment
                               

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

</pre></body></html>
